APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
No. 19-1699
IN RE: THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE COMMONWEALTH OF
PUERTO RICO; THE FINANCIAL OVERSIGHT
AND MANAGEMENT BOARD FOR PUERTO
RICO, AS REPRESENTATIVE FOR THE PUERTO
RICO HIGHWAYS AND TRANSPORTATION AUTHORITY; THE FINANCIAL OVERSIGHT AND
MANAGEMENT BOARD FOR PUERTO RICO, AS
REPRESENTATIVE FOR THE PUERTO RICO
ELECTRIC POWER AUTHORITY (PREPA); THE
FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE PUERTO RICO SALES TAX FINANCING CORPORATION, a/k/a Cofina; THE FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE EMPLOYEES RETIREMENT SYSTEM OF THE GOVERNMENT OF THE COMMONWEALTH OF PUERTO RICO,
Debtors.
___________________
THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE EMPLOYEES RETIREMENT SYSTEM OF THE GOVERNMENT OF THE
COMMONWEALTH OF PUERTO RICO,
Plaintiff, Appellee,

2a
OFFICIAL COMMITTEE OF RETIRED EMPLOYEES OF THE COMMONWEALTH OF
PUERTO RICO,
Interested Party, Appellee,
v.
ANDALUSIAN GLOBAL DESIGNATED ACTIVITY
COMPANY; GLENDON OPPORTUNITIES FUND,
LP; MASON CAPITAL MASTER FUND LP; OAKTREE OPPORTUNITIES FUND IX (PARALLEL 2),
L.P.; OAKTREE OPPORTUNITIES FUND IX, L.P.;
OAKTREE VALUE OPPORTUNITIES FUND, L.P.;
OAKTREE-FORREST MULTI-STRATEGY, L.L.C.
(SERIES B); OCHER ROSE, L.L.C.;
SV CREDIT, L.P.,
Defendants, Appellants,
PUERTO RICO AAA PORTFOLIO BOND FUND II,
INC.; PUERTO RICO AAA PORTFOLIO BOND
FUND, INC.; PUERTO RICO AAA PORTFOLIO
TARGET MATURITY FUND, INC.; PUERTO RICO
FIXED INCOME FUND II, INC.; PUERTO RICO
FIXED INCOME FUND III, INC.; PUERTO RICO
FIXED INCOME FUND IV, INC.; PUERTO RICO
FIXED INCOME FUND V, INC.; PUERTO RICO
FIXED INCOME FUND, INC.; PUERTO RICO
GNMA AND U.S. GOVERNMENT TARGET MATURITY FUND, INC.; PUERTO RICO INVESTORS
BOND FUND I, INC.; PUERTO RICO INVESTORS
TAX-FREE FUND II, INC.; PUERTO RICO INVESTORS TAX-FREE FUND III, INC.; PUERTO RICO
INVESTORS TAX-FREE FUND IV, INC.; PUERTO
RICO INVESTORS TAX-FREE FUND V, INC.;
PUERTO RICO INVESTORS TAX-FREE FUND VI,
INC.; PUERTO RICO INVESTORS TAX-FREE

3a
FUND, INC.; PUERTO RICO MORTGAGE-BACKED & U.S. GOVERNMENT SECURITIES FUND, INC.; TAX-FREE PUERTO RICO
FUND II, INC.; TAX-FREE PUERTO RICO FUND,
INC.; TAX-FREE PUERTO RICO TARGET MATURITY FUND, INC.; UBS IRA SELECT GROWTH
& INCOME PUERTO RICO FUND; ALTAIR
GLOBAL CREDIT OPPORTUNITIES FUND (A),
LLC; NOKOTA CAPITAL MASTER FUND, L.P.,
Defendants.
___________________
No. 19-1700
IN RE: THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE COMMONWEALTH OF
PUERTO RICO; THE FINANCIAL OVERSIGHT
AND MANAGEMENT BOARD FOR PUERTO
RICO, AS REPRESENTATIVE FOR THE PUERTO
RICO HIGHWAYS AND TRANSPORTATION AUTHORITY; THE FINANCIAL OVERSIGHT AND
MANAGEMENT BOARD FOR PUERTO RICO, AS
REPRESENTATIVE FOR THE PUERTO RICO
ELECTRIC POWER AUTHORITY (PREPA); THE
FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE PUERTO RICO SALES TAX FINANCING CORPORATION, a/k/a Cofina; THE FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE EMPLOYEES RETIREMENT SYSTEM OF THE GOVERNMENT OF THE COMMONWEALTH OF PUERTO RICO,
Debtors.
___________________

4a
THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE EMPLOYEES RETIREMENT SYSTEM OF THE GOVERNMENT OF THE
COMMONWEALTH OF PUERTO RICO,
Plaintiff, Appellee,
OFFICIAL COMMITTEE OF RETIRED EMPLOYEES OF THE COMMONWEALTH OF
PUERTO RICO,
Interested Party, Appellee,
v.
PUERTO RICO AAA PORTFOLIO TARGET MATURITY FUND, INC.; PUERTO RICO AAA PORTFOLIO BOND FUND, INC.; PUERTO RICO AAA
PORTFOLIO BOND FUND II, INC.; PUERTO RICO
FIXED INCOME FUND II, INC.; PUERTO RICO
FIXED INCOME FUND III, INC.; PUERTO RICO
FIXED INCOME FUND IV, INC.; PUERTO RICO
FIXED INCOME FUND V, INC.; PUERTO RICO
FIXED INCOME FUND, INC.; PUERTO RICO
GNMA AND U.S. GOVERNMENT TARGET MATURITY FUND, INC.; PUERTO RICO INVESTORS
BOND FUND I, INC.; PUERTO RICO INVESTORS
TAX-FREE FUND II, INC.; PUERTO RICO INVESTORS TAX-FREE FUND III, INC.; PUERTO RICO
INVESTORS TAX-FREE FUND IV, INC.; PUERTO
RICO INVESTORS TAX-FREE FUND V, INC.;
PUERTO RICO INVESTORS TAX-FREE FUND VI,
INC.; PUERTO RICO INVESTORS TAX-FREE
FUND, INC.; PUERTO RICO MORTGAGEBACKED & U.S. GOVERNMENT SECURITIES
FUND, INC.; TAX-FREE PUERTO RICO FUND II,
INC.; TAX-FREE PUERTO RICO FUND, INC.;

5a
TAX-FREE PUERTO RICO TARGET MATURITY
FUND, INC.,
Defendants, Appellants,
ALTAIR GLOBAL CREDIT OPPORTUNITIES
FUND (A), LLC; ANDALUSIAN GLOBAL DESIGNATED ACTIVITY COMPANY; GLENDON OPPORTUNITIES FUND, LP; MASON CAPITAL
MASTER FUND LP; NOKOTA CAPITAL MASTER
FUND, L.P.; OAKTREE OPPORTUNITIES FUND
IX (PARALLEL 2), L.P.; OAKTREE OPPORTUNITIES FUND IX, L.P.; OAKTREE VALUE OPPORTUNITIES FUND, L.P.; OAKTREE-FORREST
MULTI-STRATEGY, L.L.C. (SERIES B); OCHER
ROSE, L.L.C.; SV CREDIT, L.P.; UBS IRA SELECT
GROWTH & INCOME PUERTO RICO FUND,
Defendants.
___________________
APPEALS FROM THE UNITED STATES
DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
[Hon. Laura Taylor Swain,* U.S. District Judge]
___________________
Before
Howard, Chief Judge,
Lynch and Lipez, Circuit Judges.
___________________
Bruce Bennett, with whom Benjamin Rosenblum,
David R. Fox, Geoffrey S. Stewart, Beth Heifetz, Sparkle L. Sooknanan, Isel M. Perez, Jones Day, Alfredo
*

Of the Southern District of New York, sitting by designation.

6a
Fernández-Martínez, and Delgado & Fernández, LLC
were on brief, for Andalusian Global Designated Activity Company; Glendon Opportunities Fund, LP;
Mason Capital Master Fund LP; Nokota Capital Master Fund, L.P.; Oaktree Opportunities Fund IX (Parallel 2), L.P.; Oaktree Value Opportunities Fund, L.P.;
Oaktree-Forrest Multi-Strategy, L.L.C. (Series B);
Ocher Rose, L.L.C; and SV Credit, L.P.
Jason N. Zakia, Glenn M. Kurtz, John K. Cunningham, White & Case LLP, Alicia I. LavergneRamírez, José C. Sánchez-Castro, Maraliz VázquezMarrero, and Sánchez Pirillo LLC on brief for Puerto
Rico AAA Portfolio Target Maturity Fund, Inc.;
Puerto Rico AAA Portfolio Bond Fund II, Inc.; Puerto
Rico AAA Portfolio Bond Fund, Inc.; Puerto Rico Fixed
Income Fund II, Inc.; Puerto Rico Fixed Income Fund
III, Inc.; Puerto Rico Fixed Income Fund IV, Inc.;
Puerto Rico Fixed Income Fund V, Inc.; Puerto Rico
Fixed Income Fund, Inc.; Puerto Rico GNMA and U.S.
Government Target Maturity Fund, Inc.; Puerto Rico
Investors Bond Fund I, Inc.; Puerto Rico Investors
Tax-Free Fund II, Inc.; Puerto Rico Investors TaxFree Fund III, Inc.; Puerto Rico Investors Tax-Free
Fund IV, Inc.; Puerto Rico Investors Tax-Free Fund
V, Inc.; Puerto Rico Investors Tax-Free Fund VI, Inc.;
Puerto Rico Investors Tax-Free Fund, Inc.; Puerto
Rico Mortgage-Backed & U.S. Government Securities
Fund, Inc.; Tax-Free Puerto Rico Fund II, Inc.; TaxFree Puerto Rico Fund, Inc.; Tax-Free Puerto Rico
Target Maturity Fund, Inc.; and UBS IRA Select
Growth & Income Puerto Rico Fund.
Martin J. Bienenstock, with whom Timothy W.
Mungovan, John E. Roberts, William D. Dalsen, Stephen L. Ratner, Mark D. Harris, Jeffrey W. Levitan,
Margaret A. Dale, and Proskauer Rose LLP were on

7a
brief, for the Financial Oversight and Management
Board for Puerto Rico, as Representative for the Employees Retirement System of the Government of the
Commonwealth of Puerto Rico.
Catherine L. Steege, with whom Melissa M. Root,
Ian Heath Gershengorn, Lindsay C. Harrison, Robert
D. Gordon, Richard Levin, Jenner & Block LLP, A.J.
Bennazar-Zequeira, Héctor M. Mayol Kauffmann, and
Bennazar, García & Milián, C.S.P. were on brief, for
the Official Committee of Retired Employees of the
Commonwealth of Puerto Rico.
___________________
January 30, 2020
___________________

8a
LYNCH, Circuit Judge. The appellant Bondholders own bonds issued in 2008 by the Employees
Retirement System of the Government of the Commonwealth of Puerto Rico (the “System”). More than
eight years after the bond issuance, Congress enacted
the Puerto Rico Oversight, Management, and Economic Stability Act (“PROMESA”), 48 U.S.C. §§ 2101–
2241, to address Puerto Rico’s financial crisis and, under PROMESA’s Title III, id. §§ 2161-2177, provided
many bankruptcy protections to Puerto Rico’s government agencies. The Commonwealth and the System
filed Title III petitions for such protections.
Pursuant to a stipulation in earlier litigation between the System and the Bondholders in 2017, the
System filed two lawsuits against the Bondholders in
the Title III court seeking declaratory relief on the
“validity, priority, extent and enforceability” of the
Bondholders’ asserted security interest in the System’s “postpetition assets,” including “[employer] contributions [to the System] received postpetition.” On
summary judgment, the Title III court addressed
three arguments made by the Bondholders. Fin.
Oversight & Mgmt. Bd. for P.R. v. Andalusian Glob.
Activity Co. (In re Fin. Oversight & Mgmt. Bd. for
P.R.), 385 F. Supp. 3d 138, 147–55 (D.P.R. 2019).
First, the Bondholders claimed that their security interests fit within exceptions under § 552 of the Bankruptcy Code. Id. at 152. The Title III court rejected
that claim. Second, the Bondholders argued that they
are entitled to the protection of the “special revenue”
provisions of PROMESA. Id.; see also 48 U.S.C.
§ 2161(a) (incorporating relevant parts of 11 U.S.C.
§§ 902, 928). The Title III court held that the Bondholders were not so protected, as Employers’ Contributions were not special revenues. Andalusian, 385
F. Supp. 3d at 154. Finally, the Bondholders argued

9a
that the statutes should be construed in their favor on
their first two arguments to avoid an impermissible
taking under the Takings Clause of the Fifth Amendment. Id. at 154–55. The Title III court rejected this
argument as well. Id. at 155. We affirm.
I.
Background
We describe the relevant statutes, facts, and procedural history of the appeals. For additional facts
and procedural history, we refer the reader to the earlier litigation between these parties about these
bonds. See Altair Glob. Opportunities Credit Fund,
LLC v. Fin. Oversight & Mgmt. Bd. for P.R. (In re Fin.
Oversight & Mgmt. Bd. for P.R.), 914 F.3d 694, 702–
09 (1st Cir.), cert. denied, 140 S. Ct. 47 (2019).
A. PROMESA and the Bankruptcy Code
PROMESA created the Financial Oversight and
Management Board for Puerto Rico (the “Board”) and
authorizes that Board “to restructure the debt of the
Commonwealth of Puerto Rico through ‘quasi-bankruptcy proceedings.’” Autonomous Municipality of
Ponce (AMP) v. Fin. Oversight & Mgmt. Bd. for P.R.
(In re Fin. Oversight & Mgmt. Bd. for P.R.), 939 F.3d
356, 359 (1st Cir. 2019) (quoting Assured Guaranty
Corp. v. Fin. Oversight & Mgmt. Bd. for P.R. (In re
Fin. Oversight & Mgmt. Bd. for P.R.), 872 F.3d 57, 59
(1st Cir. 2017)). Under 48 U.S.C. § 2161(a), which incorporates § 552 of the Bankruptcy Code into
PROMESA, any property acquired postpetition by the
Title III debtor is not subject to any prepetition lien,
unless an exception applies.1 11 U.S.C. § 552(a). The
1

We employ “lien” and “security interest” interchangeably, as
the liens at issue were created by agreement. See 11 U.S.C.
§ 101(51) (defining “security interest” as a “lien created by an

10a
Bondholders’ claim is that their liens survive
because of the exception in § 552(b)(1) for the proceeds
of property subject to a prepetition lien. When the exception applies, the lien survives the filing of the Title
III petition. See id. § 552(b)(1). For this exception to
apply to a security interest, (1) the Title III debtor
must have property before filing the Title III petition;
(2) a security interest must attach to that property
prepetition; (3) that property must generate some proceeds postpetition; and (4) a prepetition security
agreement must grant a security interest in both the
original prepetition property and proceeds arising
from it postpetition. Id.
In addition, § 552(a)’s bar on liens against property received postpetition does not apply to “special
revenues acquired by the [Title III] debtor after the
commencement of the [Title III] case.” Id. § 928(a);
see also 48 U.S.C. § 2161(a) (incorporating 11 U.S.C.
§ 928(a) into PROMESA). These “special revenues . .
. remain subject to any [prepetition] lien.” 11 U.S.C.
§ 928(a). Only these special revenues as defined under § 902(2)(A) and § 902(2)(D) are argued by the
Bondholders to apply here. Section 902(2)(A) special
revenues are “receipts derived from the ownership,
operation, or disposition of projects or systems of the
[Title III] debtor that are primarily used or intended
to be used primarily to provide transportation, utility,
or other services, including the proceeds of borrowings
to finance the projects or systems.” Id. § 902(2)(A).
Section 902(2)(D) special revenues are “other revenues or receipts derived from particular functions of
the [Title III] debtor, whether or not the debtor has
other functions.” Id. § 902(2)(D).
agreement”); see also 48 U.S.C. § 2161(a) (incorporating 11
U.S.C. § 101(51)).

11a
B. The Puerto Rico Enabling Act for the System and
the Bond Resolution
In 1951, the Commonwealth created by statute
the System as both a trust and government agency.
Law No. 447 of May 15, 1951, 1951 P.R. Laws 1298
(the “Enabling Act”) (codified as amended at P.R.
Laws Ann. tit. 3, §§ 761–788). The System provides
pensions and retirement benefits to employees and officers of the Commonwealth government, municipalities, and public corporations, as well as employees and
members of the Commonwealth’s Legislative Assembly. P.R. Laws Ann. tit. 3, § 764. The Enabling Act
designated the System as “independent and separate”
from other Commonwealth agencies and funded the
System through mandatory contributions from both
employers and employees, and the System’s investment income. Altair, 914 F.3d at 704 (quoting P.R.
Laws Ann. tit. 3, § 775). The employer contributions,
in turn, were allocated to the System through annual
appropriations in the Commonwealth budgets. P.R.
Laws Ann. tit. 3, § 781(g) (repealed 2013).
As of 2008, the Enabling Act authorized the System to issue bonds, subject to conditions. Altair, 914
F.3d at 704 (citing P.R. Laws Ann. tit. 3, § 779(d)). Before the System’s assets can be used for security as to
bonds, the statute requires both the consent of twothirds of the System’s Board of Trustees and “the enactment of legislation by the Legislative Assembly.”
P.R. Laws Ann. tit. 3, § 779(d). On January 24, 2008,
the System’s Board of Trustees adopted a resolution
authorizing the issuance of $2.9 billion in bonds. Altair, 914 F.3d at 704. The Enabling Act, as amended,
references this bond issue, stating: “It is hereby clarified for future generations that the Retirement Sys-

12a
tem made a bond issue amounting to three billion dollars, which bears between 6.25% to 6.35% interest[2] to
bondholders, thus encumbering employer contributions of the System for up to fifty years.” P.R. Laws
Ann. tit. 3, § 779(d). The Bondholders own some of
these bonds.
When the System issued these bonds, it granted
the Bondholders security interests in “Pledged Property.” That definition is very important to the resolution of the issues in this case. The 2008 Pension Bond
Funding Resolution (“Bond Resolution”) defines
“Pledged Property” as:
[1] All Revenues. [2] All right, title and interest of the System in and to Revenues, and all
rights to receive the same. [3] The Funds, Accounts, and Subaccounts held by the Fiscal
Agent . . . . [4] Any and all other rights and
personal property . . . assigned by the System
to the Fiscal Agent . . . . [5] Any and all cash
and non-cash proceeds, products, offspring,
rents and profits from any of the Pledged
Property . . . .
“Revenues” is further defined to include “Employers’
Contributions received by the System.” The Resolution defines “Employers’ Contributions” as “the contributions paid from and after the date hereof that are
2

This interest rate exceeded the then-market municipal borrowing rate of closer to four-and-a-half percent, and the 2008
System bonds are, under certain circumstances, tax-exempt. See
Board of Governors of the Federal Reserve System, State and Local Bonds - Bond Buyer Go 20-Bond Municipal Bond Index (DISCONTINUED), Economic Research: Federal Reserve Bank of St.
Louis (Oct. 7, 2016), https://fred.stlouisfed.org/series/WSLB20/
(indexing representative bonds’ interest rates for bonds higher
rated than those at issue here).

13a
made by the Employers and any assets in lieu thereof
or derived thereunder which are payable to the System pursuant to Sections 2-116, 3-105 and 4-113 of the
[Enabling] Act.”3
The System also executed a security agreement,
in which it granted the Bondholders a security interest in the Pledged Property and “all proceeds thereof
and all after-acquired property, subject to application
as permitted by the Resolution.”
In 2013, the Commonwealth legislature amended
the Enabling Act in response to the ongoing financial
crisis. 2013 P.R. Laws 3. Among other changes, the
2013 Amendment repealed P.R. Laws Ann. tit. 3,
§§ 781, 786-5 (commonly referred to by their section
numbers in the original Enabling Act, 2-116 and 3105) with respect to active employees. Id. §§ 9, 12. In
effect, this froze the accrual of pension benefits for active government employees. But, through a savings
clause, the 2013 Amendment required that employers
continue to make contributions to pay benefits accrued by active employees up to the effective date of
the Act. P.R. Laws Ann tit. 3, § 761a. So, while the
2013 Amendment stopped the accumulation of new
benefits, it also preserved for accrued benefits the concept of Employers’ Contributions, and also how those
Contributions were calculated, including the dependence of the calculation on the ongoing payrolls of each
employer.
In 2017, the Commonwealth again amended the
Enabling Act. See Con. H.R. Res. 188, 18th Legislative Assemb. (2017) (“Concurrent Resolution 188”);
2017 P.R. Laws 106. Until the 2017 Amendment, the
3

Codified at P.R. Laws Ann. tit. 3, §§ 781, 786-5, 787, respectively.

14a
Enabling Act required that the contribution of government employers be at least 9.275% of their participating employees’ compensation (with respect to accrued
benefits). P.R. Laws Ann. tit. 3, § 781(d) (repealed
2013). The 2017 Amendment eliminated the employers’ obligation to contribute to the System and required the Commonwealth General Fund to pay individual pensions.4 See Concurrent Resolution 188.
The Act does not authorize the System to charge any
fees for managing participant investments or providing retirement services. P.R. Laws Ann. tit. 3, § 781.
The Enabling Act before 2017 specifies the consequences if employers fail to make their required Contributions to the System. The “director [or ‘head’] of
an agency, public corporation or municipality” who
“knowingly, willfully, and without just cause fails to
remit” his/her agency’s Contributions to the System
“shall be guilty of a felony.” P.R. Laws Ann. tit. 3,
§ 781a(a), (f). More significant for present purposes,
the Enabling Act also directs that, upon receiving a
4

The legal status of these payments and the validity of the
2017 Amendment are subject to other litigation. See, e.g., Altair
Glob. Credit Opportunities Fund (A), LLC v. United States, 138
Fed. Cl. 742 (Fed. Cl. 2018); Complaint, Altair Glob. Credit Opportunities Fund (A), LLC v. Commonwealth of Puerto Rico (In
re Fin. Oversight & Mgmt. Bd. for P.R.), No. 17-00219-LTS
(D.P.R. filed July 27, 2017), ECF No. 1. This other litigation
raises the issues of whether the 2017 Amendment actually eliminated the Bondholders’ liens and, if so, whether that action was
constitutional. The Title III court has stayed the proceedings
pending the outcome of the instant appeal. Order, Altair, No. 1700219-LTS (D.P.R. filed Sept. 6, 2018), ECF No. 69. Although
the 2017 Amendment repealed the Employers’ Contributions
provision of the Enabling Act, subsequent events could reinstate
these provisions. In consequence, and for clarity, we refer to
these provisions in the present tense with respect to the Contributions still required after the 2013 Amendment.

15a
certificate of debt from the Administrator of the System, it is Centro de Recaudación de Ingresos Municipales (“CRIM”), Puerto Rico’s municipal property tax
collection agency, which is obligated to pay the delinquent Employers’ Contributions of municipalities “on
or before the fifteenth (15) day of each month” and it
is the Commonwealth Secretary of the Treasury who
is obligated to pay the delinquent Employers’ Contributions of “an agency, public corporation, or any
[Commonwealth-level government] entity . . . immediately.” Id. § 781a(g), (h). The statute also states that
delinquent Employers’ Contributions (and several additional types of debt) “shall have priority over any
other outstanding debt of” a municipality or a Commonwealth-level entity that fails to make its Contribution. Id. CRIM and the Secretary of the Treasury
are obligated to give priority to those debts before addressing other debts of the municipality or Commonwealth entity. The Enabling Act’s provisions do not
accord the System any remedy or mechanism to collect
delinquent Contributions. See id. § 781a.
C. Procedural History
The first time this court addressed these bonds, it
held that the Bondholders had perfected a security interest in whatever property was pledged to them under the bond issuance’s security agreement. Altair,
914 F.3d at 719. We then remanded to the Title III
court to determine whether the Bondholders held
“valid, enforceable, attached, perfected, first priority
liens on and security interest in [prepetition and postpetition Employers’ Contributions]” and whether the
Employers’ Contributions were special revenues under 11 U.S.C. § 928(a). Id. at 720.

16a
As said, the Title III court concluded that, under
11 U.S.C. § 552(b)(1), postpetition Employers’ Contributions were not proceeds of a secured, prepetition
property right of the System to receive them. Andalusian, 385 F. Supp. 3d at 152. It also concluded that
the Employers’ Contributions were not special revenues under § 902(2)(A) or (D). Id. at 154. Finally, the
court rejected the Bondholders’ argument that the
canon of constitutional avoidance required it to construe PROMESA’s incorporation of § 552 to be prospective only. Id. at 155. In consequence, the Title III
court held that, under § 552(a), postpetition Employers’ Contributions were not subject to any security interest of the Bondholders, denied summary judgment
to the Bondholders, and granted summary judgment
to the Board. Id. These appeals followed.
II.
Standard of Review
“We review de novo the grant or denial of summary judgment, as well as pure issues of law.” Rodriguez v. Am. Int’l Ins. Co. of P.R., 402 F.3d 45, 46–47
(1st Cir. 2005) (citation and emphasis omitted). We
must “‘view [the parties’ cross motions for summary
judgment] separately,’ in the light most favorable to
the non-moving party, and draw all reasonable inferences in that party’s favor.” OneBeacon Am. Ins. Co.
v. Commercial Union Assurance Co. of Can., 684 F.3d
237, 241 (1st Cir. 2012) (quoting Estate of Hevia v.
Portrio Corp., 602 F.3d 34, 40 (1st Cir. 2010)).

17a
III.
Section 552 Prevents the Bondholders’ Security
Interest from Attaching to Postpetition Employers’
Contributions
The Bondholders argue that § 552(a) does not bar
a lien on Employers’ Contributions received postpetition because those Contributions are “proceeds”
within the meaning of § 552(b)(1). That is, the Bondholders argue that (1) the System’s statutory authority to receive Employers’ Contributions constituted a
property right; (2) the Security Agreement gave the
Bondholders a security interest in the System’s property right to receive those Contributions; (3) the Employers’ Contributions actually received postpetition
are the “proceeds” of the System’s prepetition property right; and (4) the Security Agreement gave the
Bondholders a security interest in these “proceeds” of
the System’s prepetition right. They argue they have
an interest in both the System’s prepetition right to
receive postpetition Employers’ Contributions and in
the employers’ prepetition obligations to make postpetition contributions to the System on account of any
actuarial deficit. They argue that these obligations
continue postpetition and so are proceeds of the prepetition property.5 After addressing the contract and
statutory language common to these theories, we address each theory in turn.
We look at a combination of the points of the above
analysis by examining the extent of the Bondholders’
security interest as defined in the Bond Resolution to
determine whether, as of the petition date, that interest constituted a property right to receive postpetition

5

At different stages of the proceedings, the Bondholders have
framed the same argument in these two different ways.

18a
Employers’ Contributions. The Bondholders’ security
interests are restricted to those defined as Pledged
Property.
“Pledged Property” is defined in the Bond Resolution to include “Revenues,” and Revenues are restricted to Employers’ Contributions received by the
System, “rights to receive [the Revenues],” and the
proceeds of any property or rights defined as Revenues.6 The Official Statement accompanying the
bonds denotes that the “[b]onds are not payable from
or secured by any other assets of the System.” The
key to resolving the § 552 argument in this case is the
limited definition of “Employers’ Contributions.”
We start by rejecting the Bondholders’ argument,
as did the Title III court, that, in the Bond Resolution’s definition of Employers’ Contributions, the limiting clause “which are payable to the System pursuant to Sections 2-116, 3-105 and 4-113” modifies only
the antecedent phrase “any assets in lieu thereof or
derived thereunder” and not the other antecedent
phrase “the contributions paid from and after the date
hereof that are made by the Employers.” The Supreme Court has held that “[w]hen several words are
followed by a clause which is applicable as much to the
first and other words as to the last, the natural construction of the language demands that the clause be
read as applicable to all.” Paroline v. United States,
572 U.S. 434, 447 (2014) (quoting Porto Rico Ry., Light
6

Not at issue are other categories of Pledged Property than
those addressed in this opinion. Pledged Property also comprises
various funds, accounts, and additional rights of the System.
“Revenues” is also defined to include various other payments and
income received by the System (and unrelated to Employers’
Contributions). No party has argued any of these additional definitions are relevant here, so we need not discuss them further.

19a
& Power Co. v. Mor, 253 U.S. 345, 348 (1920)). That
principle applies here, and the limiting clause here is
applicable to both antecedent phrases. Such Employers’ Contributions, and so the extent of the security
interest granted by the Security Agreement, are limited to those contributions payable to the System pursuant to Sections 2-116, 3-105, and 4-113 of the Enabling Act. We turn to each of these sections.
As to pension benefits preserved under the 2013
Amendment’s savings provision, see P.R. Laws Ann.
tit. 3, § 761a (2013), Section 2-116(a) states that Employers’ Contributions “should” cover the difference
between the total cost of the System and employee
contributions. Id. § 781 (repealed 2013). The Section
also provides the formula for computation of each employer’s monthly contribution. Id. Importantly, the
Section provides that an employer is not obligated to
contribute anything until the Employers’ Contributions are determinable. See id. § 781(c), (d), (f). The
Section also provides that future appropriations by
the legislature would allocate the funds in the amount
of the Employers’ Contributions. Id. § 781(g).
As to benefits similarly preserved under the savings provision of the 2013 Amendment, Section 3-105
requires Employers’ Contributions to be paid for salaried employees. Id. § 786-5. These are computed in
the same manner as the Contributions are for other
employees.
Finally, Section 4-113 states only that the intent
of the Enabling Act is that contributions, annuities,
benefits, reimbursements, and administration expenses be obligations of the employers. Id. § 787.

20a
A. As of the Petition Date, the System Did Not Have
a Property Right, and the Bondholders Did Not
Have a Security Interest, in Any Right To Receive
Postpetition Employers’ Contributions
We turn to the Bondholders’ argument that their
security interest in prepetition “rights” to receive Employers’ Contributions gave them a security interest
in Contributions received postpetition. The Security
Agreement covers only Contributions paid or payable
to the System and rights to receive the same under
the three provisions outlined above.
We conclude that the System’s statutory authority
to receive postpetition Employers’ Contributions constituted merely an expectancy and not a property
“right” as it is clear that the payment and the amounts
of the Contributions depended on work occurring on
and after the petition date. It is also clear and our
result is reinforced by the fact that language in the
Bond Resolution and the Official Statement for the
bonds explicitly contemplated that the payment of future Contributions was contingent on Puerto Rico’s future fiscal status and the decisions of future Puerto
Rico legislatures. Because Employers’ Contributions
to the System based on payroll amounts for work occurring on and after the petition date could not be determined as of the petition date, the Contributions
were not payable prepetition and the Bondholders did
not have any security interest in such contributions.
The Bondholders thus lacked any secured interest in
property that could produce postpetition “proceeds” to
which they could be entitled.
See 11 U.S.C.
§ 552(b)(1); N.H. Bus. Dev. Corp. v. Cross Baking Co.
(In re Cross Baking Co.), 818 F.2d 1027, 1032 n.6 (1st
Cir. 1987) (stating that “[§] 552(b) ‘creates an exception for proceeds generated by prepetition collateral,

21a
and not for property acquired by the debtor or the estate postpetition or proceeds of the same.’” (quoting 4
Collier on Bankruptcy ¶ 552.02, at 552–7 (Lawrence
King ed., 15th ed. 1987))). So, the Bondholders did not
have a prepetition property right in any postpetition
contributions that might be made. At most, the Bondholders had an expectation.7
Importantly, the Bond Resolution explicitly states
that the legislature of the Commonwealth might reduce (or, by implication, eliminate) Employers’ Contributions, and so “adversely affect[]” the Bondholders. And legislative appropriations are the method by
which the Commonwealth allocates the Employers’
Contributions to the System. Although required by
Section 2-116(g),8 this directive could be disregarded

7
Typically, local law creates and defines property interests in
bankruptcy proceedings. Soto-Rios v. Banco Popular de P.R., 662
F.3d 112, 117 (1st Cir. 2011) (citing Butner v. United States, 440
U.S. 48, 54–55 (1979)). Puerto Rico law recognizes that the mere
expectancy of property is not itself a property interest. See, e.g.,
Redondo-Borges v. HUD, 421 F.3d 1, 9 (1st Cir. 2005) (holding
that, under Puerto Rico law, a government contract bidder had
only a “unilateral expectation,” not a vested property interest in
a Puerto Rico agency’s determination of the party’s responsible
bidder determination, even if it prevented the party from receiving future bids and payment from the government); Carrasquillo
v. Aponte Roque, 682 F. Supp. 137, 141 (D.P.R. 1988) (distinguishing between “vested property interests” and “subjective expectancies” under Puerto Rico law). This treatment of expectancies as not property interests is generally accepted. See Restatement (Third) of Trusts § 41 cmt. a (Am. Law Inst. 2003) (“By all
traditional and current concepts of property, expectancies are not
property interests.”).
8
At least, this was true until the Contributions provisions
were repealed with respect to future benefits in 2013 and fully
repealed in 2017.

22a
by a subsequent legislature (to the Bondholders’ detriment). See P.R. Laws Ann. tit. 3, § 781(g) (repealed
2013); United States v. Winstar Corp., 518 U.S. 839,
873 (1996) (“[O]ne legislature is competent to repeal
any act which a former legislature was competent to
pass; and one . . . legislature cannot abridge the powers of a succeeding legislature.” (quoting Fletcher v.
Peck, 10 U.S. (6 Cranch) 87, 135 (1810))).
Moreover, the Official Statement for the bonds explicitly contemplates that, if faced with insufficient
funds to pay approved appropriations, the Commonwealth would prioritize paying public debt over funding Employers’ Contributions. As the Official Statement provides, “[t]his Constitutional restriction does
not apply to Employers’ Contributions made by public
corporations and municipalities, because the funds of
public corporations and municipalities are not ‘available resources’ of the Commonwealth.” This language
in the Official Statement put the Bondholders on notice that the Employers’ Contributions stem from appropriations that the Commonwealth legislature
could, and likely would, reduce if it could not fully
fund its planned appropriations.
The Bondholders knew that if the Commonwealth
experienced additional financial problems, such problems could adversely affect the Bondholders. These
known risks of alterations to the Employers’ Contributions distinguish the instant case from the cases the
Bondholders cite regarding liens on prepetition contracts. See, e.g., United Va. Bank v. Slab Fork Coal
Co., 784 F.2d 1188, 1191 (4th Cir. 1986) (deciding
whether postpetition payments under a coal contract
made subject to a prepetition lien were proceeds subject to the same lien).

23a
The Bondholders argue that Cadle Co. v. Schlichtmann, 267 F.3d 14 (1st Cir. 2001), requires that we
rule in their favor. Not so. In fact, Cadle, although
partially distinguishable on the facts, supports the
Board. In Cadle, a law firm granted to a bank a security interest in its accounts receivable, including a
$300,000 contingency fee interest in escrowed settlement funds. Id. at 16. Schlichtmann, a partner in the
firm, later declared bankruptcy and the firm dissolved. Id. Schlichtmann completed the remaining
work on the settlement, distributed the $300,000
among himself and his partners, and did not transfer
anything to the security interest owner. Id. Although
the finalization of the settlement depended on judicial
approval, the security interest had attached to the escrowed funds. Id. at 19. Those funds were not “future
fees”, id. at 18 n.2, as “the amount of the fee . . . was
established outside of Schlichtmann’s bankruptcy,” id.
at 19, and nothing in the security agreement suggested that “the fees or the security interest were contingent on the performance of substantial further legal services,” id. at 21. On these facts, the Cadle court
held that the contingent fee was proceeds of a prepetition account receivable, not after-acquired property,
and so the security interest survived under
§ 552(b)(1). Id.
The facts here differ considerably. The Bondholders claim a security interest in future, yet-to-be calculated or contributed Employers’ Contributions, and
not in deposited funds. Unlike the fee in Cadle, the
Contributions at issue are only determinable postpetition and so are not “established outside of . . . bankruptcy.” Id. at 19. Further, unlike in Cadle, the future
Employers’ Contributions necessarily depend on future payrolls, which depend in turn on the performance of labor by government employees. Although

24a
the finality of the settlement was contingent on judicial and regulatory approval, the secured property in
Cadle was otherwise fixed prepetition and payable at
any time. The postpetition Employers’ Contributions
here, by contrast, are not payable until they are determined postpetition. As of the petition date, postpetition Employers’ Contributions were too indeterminate
for any “right” to receive postpetition Employers’ Contributions to be prepetition property of which those
postpetition Contributions could be proceeds.9
B. The Bondholders Do Not Have Liens on “Obligations” of Employers To Solve Any Deficiency in the
Pension System
The Bondholders raise another theory of recovery
under § 552(b): they claim to have a prepetition security interest in payments on the employers’ “obligation” to pay down the actuarial deficit, that Employers’ Contributions are proceeds of this actuarial deficit
obligation, and so they conclude the Bondholders have
a security interest in these actuarial deficit “proceeds”

9
Valley Bank & Trust Co. v. Spectrum Scan, LLC (In re Tracy
Broadcasting), 696 F.3d 1051 (10th Cir. 2012), cited by the Bondholders, is, of course, not binding on us and further is similarly
distinguishable. Tracy held that the right to the proceeds of selling a Federal Communications Commission license was prepetition property, the postpetition revenues from selling the license
were proceeds of that property, and so the creditor’s security interest in the sale proceeds survived the debtor’s bankruptcy under § 552(b)(1). Id. at 1058–59.
In Tracy, the FCC license already existed, so the right to its
sale proceeds was more analogous to uncalculated accounts receivable than the “right to receive” Employers’ Contributions,
which arise postpetition from employee labor and salary every
month.

25a
under § 552(b)(1).10 This theory fails both because the
plain language of the Security Agreement and Bond
Resolution does not include the Bondholders’ purported collateral and because the Employers’ Contributions are not “proceeds” as a matter of fact or of law.
1.

The Security Agreement’s Language Does
Not Cover the Actuarial Deficit

As said, the Bondholders only had a security interest in Contributions made under the three Puerto
Rico statutory provisions discussed earlier. As to
these three provisions, the Enabling Act does not create an obligation of employers to pay the actuarial deficit. In consequence, there is no security interest
granted by the Security Agreement in payments on
any purported employer obligation to pay down the actuarial deficit.
As the Title III court correctly recognized, even
were employers required to make actuarial deficit
contributions, employers could not be obligated to pay
actuarial deficit contributions until such deficiencies
were determinable. Section 2-116(e) provides that
“the [actuarial deficit] shall constitute a deficiency in
the employer contribution” and that “[t]he obligation
accrued as a result of this deficiency shall constitute
an actuarial deficit for the System and an obligation
10

Even if the Bondholders’ actuarial deficit argument is meant
to show that they had liens on postpetition Employers’ Contributions of a determinable amount (that is, the actuarial deficit as
of 2013), this argument fails for the reasons stated in Section
III.A. In the interest of completeness, we address in the text the
Bondholders’ actuarial deficit argument as one separate from the
Bondholders’ primary § 552 argument, and not merely as a response to the Title III court’s conclusion that the Bondholders’
purported prepetition collateral was insufficiently “fixed in form
or quantity.”

26a
of the employer.” P.R. Laws Ann. tit. 3, § 781(e). The
Bondholders did not acquire a security interest explicitly in payments toward the deficit. The statutory provisions that do give the Bondholders a security interest merely require employers to pay whatever rate the
System’s Administrator sets (not the entire deficit).
See id. §§ 781(c), (d), 786-5.
Because this deficit is calculated after the payment of the employers’ monthly contribution, as a factual matter, it cannot be a part of that contribution.
See id. § 781 (c)–(e). Under Section 3-105, Employers’
Contributions are based on the salary of each participant covered by the System retirement program. Id.
§ 786-5. And the Employers’ Contributions are required “to be made concurrently with employee contributions,” id. § 781(d), and these are made monthly, id.
§ 780. The Title III court correctly observed that, before employees actually worked, those Contributions
were not, and could not be, “fixed in form or quantity.”
The Employers’ Contributions could not form a prepetition pool of obligations in which the Bondholders
have a security interest.
In addition, Section 1-110(d) of the Enabling Act
provides that the System’s Administrator shall annually “certify the . . . amounts which shall be contributed by [employers]” and can “require [employers] to
make additional payments to eliminate [accumulated
actuarial] shortages.” P.R. Laws Ann. tit. 3, § 782(d).
That section makes it plain that employers could not
be required to make additional payments until there
were certifications.11

11

We do not reach the additional argument by the System that
even if the employer had a payment obligation to the System,
that obligation would not constitute property of the System.

27a
Our conclusion is buttressed by Section 4-113,
which provides: “It is the intent of §§ 761 et seq. of this
title [i.e., the Enabling Act] that the contributions required from the employer, as well as all annuities,
benefits, reimbursements, and administration expenses, shall constitute obligations of the employer.”
P.R. Laws Ann. tit. 3, § 787 (2013). The provision expresses an aspiration that Employers’ Contributions
will cover the System’s cost, but it does not create an
additional obligation that alters Employers’ Contributions. Nor does it create an interest in property to
which the Bondholders’ Security Agreement applies.
Further, this provision clearly distinguishes between
contributions and the other expenses of the System
which constitute employers’ obligations.
The Bondholders argue that the 2013 Amendment, by freezing the accrual of future benefits, fixed
prepetition the total pension liability of the System.
They then contend that Sections 2-116(e) and 4-113,
which each state that deficiencies “shall constitute”
employer obligations, accord the System an enforceable right to collect Employers’ Contributions. See P.R.
Laws Ann. tit. 3, §§ 781(e), 787. The Bondholders
characterize the System’s pension liability as a pool of
benefits (fixed by the 2013 Amendment) for which all
employers are jointly liable. In consequence, they argue, Employers’ Contributions are merely a mechanism of standardizing this liability month-to-month.
Not so. The Bondholders’ view of the System contradicts the Enabling Act’s plain language, and their asserted security interest exceeds the language of the
Security Agreement. The 2013 Amendment does not
change whether the Bondholders had a prepetition security interest in postpetition Employers’ Contributions. It does not alter the extent of the Security

28a
Agreement and, for the Contributions it did not discontinue, it did not alter their calculation or payment.
The 2013 Amendment is irrelevant to the determination of whether the § 552(b)(1) exception applies.
2.

The Employers’ Contributions Cannot Be
“Proceeds” of Any Deficit

Employers’ Contributions cannot be proceeds of
any secured, prepetition property for another reason.
The Enabling Act does not include a provision that
creates an obligation of the employers to plug a deficiency in the System, so no such obligation exists. It
is impossible to have a lien on something that does not
exist. See Sims v. Jamison, 67 F.2d 409, 411 (9th Cir.
1933) (“[T]here can be no lien upon something which
does not exist at the time of the [bankruptcy] adjudication.”). The Employers’ Contributions cannot be the
proceeds of some property interest on which the Bondholders do not have a lien.
C. The Amendment of Article 9 of the Puerto Rico
Uniform Commercial Code Does Not Affect the
Resolution of the § 552 Issue
The Bondholders argue that the expanded definition of collateral and proceeds in the amended Article
9 of Puerto Rico’s Uniform Commercial Code (“UCC”)
renders as secured proceeds the Employers’ Contributions. This lacks merit.
First, Congress codified the term “proceeds” in
§ 552(b)(1) well before Puerto Rico or any state revised
Article 9. Compare Bankruptcy Abuse Prevention Act
of 2005, 119 Stat. 23 (2005) (amending § 552 in 2005,
its most recent amendment), with Law No. 21 of January 17, 2012, 2012 P.R. Laws 162 (codified at P.R.
Laws Ann. tit. 19, §§ 2211-2409) (implementing the
American Law Institute’s revisions to the UCC on

29a
January 13, 2013); Paul Hodnefield, Proposed 2010
Amendments to UCC Article 9: State-by-State Adoption (June 6, 2015), Westlaw Practical Law. When enacting, or last amending, § 552, Congress employed
the definition of “proceeds” as it was at that time (not
as it would be if there were a material alteration made
in a future alteration of Article 9). See Saint Francis
Coll. v. Al-Khazraji, 481 U.S. 604, 610 (1987) (stating
that courts should look to a statutory term’s definition
when Congress enacted the statute). So, the revised
definition in Puerto Rico law of Article 9 is irrelevant.
Second, even if the revised UCC Article 9 expanded the concept of collateral and altered Puerto
Rico law distinguishing between expectancies and
property (which we need not decide), the Bondholders’
claims still require a collection on a receivable. Here,
there were no postpetition collections on, i.e., proceeds
of, any prepetition receivables, i.e., collateral, onto
which the Bondholders’ lien might attach. See P.R.
Laws Ann. tit. 19, § 2212(a)(64). The only receivables
at issue are the Employers’ Contributions and, as
said, such Contributions only become receivables after
the employers’ employees actually performed the
work necessary for payroll to be calculated.12 The
Bondholders do not have the security interest they
claim to have in postpetition Employers’ Contributions.

12

This analysis does not address Employers’ Contributions calculated and owed, but not paid to the System, before the filing of
the Title III petition. The Board concedes that the Bondholders
have a security interest in these receivables.

30a
IV.
The Bondholders Did Not Have Special Revenue
Bonds Under § 902(2)(A) or (D)
The Bondholders argue that the Employers’ Contributions are special revenues within the meaning of
11 U.S.C. § 902(2)(A) and (D). Section 902(2)(A) defines as “special revenues” any “receipts derived from
the ownership, operation, or disposition of . . . systems
. . . primarily used or intended to be used primarily to
provide transportation, utility, or other services.” Id.
§ 902(2)(A). Section 902(2)(D) defines as “special revenues” “other revenues or receipts derived from particular functions of the debtor.” Id. § 902(2)(D). This
statutory analysis turns on whether the Employers’
Contributions are “derived from” the ownership or operation of a system of “other services” provided the
System or the “particular functions” of the System.
The “particular function” of the System is limited to
collecting Employers’ Contributions, making investments, and paying out pension benefits.
The Title III court concluded that the Employers’
Contributions were not special revenues. Applying
the canon of ejusdem generis, the Title III court concluded that, in § 902(2)(A), “other services” comprised
only “physical system[s] of providing services to third
parties.” Andalusian, 385 F. Supp. 3d at 154. The
court then held that, because the System did not provide transportation, utility, or other services involving
a “physical system,” the Bondholders did not have special revenue bonds under § 902(2)(A). Id.
Turning to § 902(2)(D), the Title III court stated
that the System served as a conduit for the deferred
compensation of government employees through the
Contributions, it did not charge any fees for its services, the Employers’ Contributions were not derived

31a
from a “particular function” of the System, and so
Bondholders did not have special revenue bonds under § 902(2)(D). Id.
On appeal, the Bondholders argue that the System derives the Employers’ Contributions from its
ownership and operation of the pension system because, as defined in the Bond Resolution, the System
performs its pension functions “due to its statutory
right to receive Employers’ Contributions.” They define “derive” as “to take or receive especially from a
specific source,” citing Derive, Webster’s Ninth Collegiate Dictionary (1986). The Bondholders also argue
that, because the System receives Employers’ Contributions, for that same reason it performs its “particular functions,” and Employers’ Contributions are
“fees” for providing pension benefits, the Employers’
Contributions are special revenues under § 902(2)(D).
Neither the Bankruptcy Code nor PROMESA give
“derived from” a special definition. In consequence,
we “construe [it] in accordance with its ordinary or
natural meaning.” FDIC v. Meyer, 510 U.S. 471, 476
(1994) (citing Smith v. United States, 508 U.S. 223,
228 (1993)). In this context, we interpret “derived
from” as requiring that Employers’ Contributions
originate in the System’s “particular functions” or its
“ownership, operation, or disposition of” a system of
“other services.” See Derive, Webster’s Third New International Dictionary (1993) (defining “derive” as “to
have or take origin: ORIGINATE: STEM, EMANATE”); Derive, Merriam-Webster Unabridged Dictionary, http://unabridged.merriam-webster.com/unabridged/derive (last visited Jan. 29, 2020) (same); Derive,
Oxford
English
Dictionary
Online,
https://oed.com/view/Entry/50613 (last visited Jan.
29, 2020) (defining “derive” as “[t]o flow, spring, issue,

32a
emanate, come, arise, [or] originate”).13 The Bondholders’ argument fails to meet this test.
We need look only to the plain language of the
statute to reject the Bondholders’ special revenues arguments.14 See Conn. Nat’l Bank v. Germain, 503
U.S. 249, 254 (1992) (“When the words of a statute are
unambiguous, then, th[e] first canon [of statutory construction] is also the last: ‘judicial inquiry is complete.’” (quoting Rubin v. United States, 449 U.S. 424,
430 (1981))).
The System does not charge any fees, much less
any in which the purported “special revenues” could
originate. Employers do not, as the Bondholders assert, pay the System in exchange for it later paying
pension benefits to employees. Instead, the employers
(and employees) pool retirement savings in the System, a trust, for the future benefit of the employees.
The Employers’ Contributions originate in the work of

13
We use the definition of “derive” in its intransitive sense, as
opposed to in its transitive sense (as the Bondholders do). See
Bell Commc’ns Research, Inc. v. Fore Sys., Inc., 62 Fed. App’x
951, 959 (Fed. Cir. 2003) (interpreting similar “derived from” language as intransitive and concluding the best definition for “derive” was “to have or take origin: ORIGINATE: STEM, EMANATE”).
14
The legislative history of § 902(2)(D) also supports our conclusion. It indicates that Congress intended § 902(2)(D) to capture miscellaneous revenues accruing from government services
to the public, like “regulatory fees and stamp taxes imposed for
the recording of deeds,” H.R. Rep. No. 100-1011, at 7 (1988), as
reprinted in 1988 U.S.C.C.A.N. 4115, 4121; S. Rep. No. 100-506,
at 21 (1988), or “tolls or fees relating to a particular service or
benefit,” S. Rep. No. 100-506, at 21.

33a
the employees that generate the contributions15 and
the statutory obligation of employers to contribute.
Neither the System’s “particular function” nor its
“ownership” or “operation” of its system of providing
pension services produces any revenue. Indeed, the
Employers’ Contributions, far from deriving from a
“particular function” of the System, come from annual
appropriations of the Commonwealth. P.R. Laws
Ann. tit. 3, § 781(g) (repealed 2013). As the Title III
court correctly concluded, the System merely “functions as a conduit for distribution of Employers’ Contributions.” Andalusian, 385 F. Supp. 3d at 154.
As to § 902(2)(A), the Employers’ Contributions do
not originate in either the System’s ownership or disposition of pension assets, or its ownership or operation of the pension system as a whole. That the Puerto
Rico legislature may have intended to direct the Employers’ Contributions to the System because it owned
or operated a system of pension services does not
mean the Contributions originate in the System’s
ownership or operation. The Contributions originate
in, and so are derived from, employee labor and statutory obligations, both of which occur and exist separately from any of the System’s ownership interests or
operation activities. In consequence, the Employers’
15

The Bondholders argue that, because most government labor
does not actually generate revenue, the Employers’ Contributions are not derived from the labor of the employees. But this
lacks merit. The profitability of the employees is irrelevant. Under the Enabling Act, an employer must contribute to the System
a percentage of the salary it pays its employee. P.R. Laws Ann.
tit. 3, §§ 781(d), 786-5. This salary, in turn, originates in the employee’s labor. But for the labor of the employee and this statutory obligation, the employer would not need to contribute. Accordingly, the Employers’ Contributions are derived from employee labor.

34a
Contributions
§ 902(2)(A).16

are

not

special

revenues

under

Similarly, as to § 902(2)(D), that the “particular
functions” of the System relate to the management,
investment, and distribution of these funds does not
mean the Contributions originate in these activities.
We conclude that, although the Contributions may relate to and support the System’s functions, they do not
originate in them, analogously to our § 902(2)(A) reasoning. The Contributions originate in employee labor and the statutory obligation. Accordingly, the
Employers’ Contributions are not derived from any
“particular function” of the System, and so are not
“special revenues” under § 902(2)(D).
V.
Section 552 Applies Retroactively to the
Security Agreement
We address the Bondholders’ fallback argument
that if our reading of § 552 led to a rejection of their
arguments, then applying § 552 to them would “raise
grave constitutional questions.” We disagree. The
Bondholders frame the issue as one of constitutional
avoidance. They argue first that Congress has not explicitly commanded that PROMESA applies § 552 retroactively. The Bondholders then argue that the
canon of constitutional avoidance requires us to interpret PROMESA as applying § 552 prospectively only,
because, in their view, interpreting § 552 to impair
retroactively the Bondholders’ liens would violate the
Takings Clause. See Jones v. United States, 529 U.S.
16

We need not decide the congressional meaning of “other services” in § 902(2)(A), as the Employers’ Contributions are not derived from the System’s ownership, operation, or disposition of
its system of pension services.

35a
848, 857 (2000) (discussing the role of the canon of
constitutional avoidance “where a statute is susceptible of two constructions” (quoting U.S. ex rel. Att’y
Gen. v. Del. & Hudson Co., 213 U.S. 366, 408 (1909))).
The Bondholders argue that, because § 552 did not apply to liens granted by Puerto Rico and its instrumentalities at the time when the Bondholders purchased
the bonds in 2008, see Franklin Cal. Tax-Free Tr. v.
Puerto Rico, 805 F.3d 322, 329–31 (1st Cir. 2015), aff’d
136 S. Ct. 1938 (2016), then applying § 552 to the Security Agreement after they purchased the bonds
would constitute an unconstitutional taking.
The Title III court addressed similar arguments
and concluded that Congress, by its purpose in enacting PROMESA to address Puerto Rico’s financial crises, clearly intended to apply § 552 retroactively. Andalusian, 385 F. Supp. 3d at 154–55. That ruling was
correct.
Courts typically presume Congress intends a statute to operate only prospectively, but will give retrospective operation to a statute if such construction is
“the manifest intention of the legislature.” Kaiser
Aluminum & Chem. Corp. v. Bonjorno, 494 U.S. 827,
844 (1990) (quoting Union Pac. R.R. Co. v. Laramie
Stock Yards Co., 231 U.S. 190, 199 (1913)).
PROMESA’s plain language controls here and determines the issue. A court cannot adopt a statutory construction “plainly contrary to the intent of Congress”
to avoid a constitutional question. Miller v. French,
530 U.S. 327, 341 (2000) (quoting Edward J. DeBartolo Corp. v. Fla. Gulf Coast Bldg. & Constr. Trades
Council, 485 U.S. 568, 575 (1988)). The canon of constitutional avoidance can apply only when the statute
is ambiguous. See id. (citing Pa. Dep’t of Corr. v. Yeskey, 524 U.S. 206, 212 (1998)).

36a
PROMESA’s effective date states that “[s]ubchapters III and VI shall apply with respect to debts,
claims, and liens (as such terms are defined in section
101 of Title 11) created before, on, or after [June 30,
2016].” 48 U.S.C. § 2101(b)(2) (emphasis added).
PROMESA incorporates § 552 of the Bankruptcy
Code under Subchapter III. Id. § 2161(a). PROMESA
also adopts the Code’s definitions of “lien” and “security interest.” Id. § 2161(a), (c); see also 11 U.S.C.
§ 101(37) (defining “lien” as a “charge against or interest in property to secure payment of a debt or performance of an obligation”); 11 U.S.C. § 101(51) (defining
“security interest” as a “lien created by an agreement”). This shows that Congress plainly intended to
apply § 552 to security interests and agreements created before the enactment of PROMESA.17 See, e.g.,
Vartelas v. Holder, 566 U.S. 257, 267 (2012) (stating
17

Given the plain language of the statute, we need not address
the parties’ arguments regarding PROMESA’s underlying policy
rationale or that the Bondholders waived any argument regarding § 2101(b)(2).
The Bondholders have not raised in their initial appellate
brief an argument based on their counterclaim V for declaratory
judgment. We do not decide an argument not presented to us.
See Pignons S.A. de Mecanique v. Polaroid Corp., 701 F.2d 1, 3
(1st Cir. 1983). Nor is it clear that we would have jurisdiction
over such a Takings Clause claim if it were made. See Horne v.
Dep’t of Agric., 569 U.S. 513, 527 (2013) (“A claim for just compensation under the Takings Clause must be brought to the
Court of Federal Claims in the first instance, unless Congress
has withdrawn the Tucker Act grant of jurisdiction in the relevant statute.” (quoting E. Enters. v. Apfel, 524 U.S. 498, 520
(1998) (plurality opinion of O’Connor, J.))).
Indeed, the Bondholders brought a different action in the
Court of Federal Claims under its exclusive Tucker Act jurisdiction, alleging that the 2017 Amendment effected an unconstitutional taking of their liens on Employers’ Contributions. Altair,
138 Fed. Cl. at 752–54.

37a
that a statutory provision applying “before, on, or after” the statute’s enactment date required retroactive
application); Goncalves v. Reno, 144 F.3d 110, 131–32
(1st Cir. 1998) (same).
PROMESA’s statutory language clearly expresses
an intent that § 552 apply retroactively, which distinguishes the instant case from United States v. Security Industrial Bank, 459 U.S. 70 (1982), which the
Bondholders argue requires us to give only prospective effect to PROMESA’s incorporation of § 552. This
contention lacks merit. Security Industrial Bank held
that “[n]o bankruptcy law shall be construed to eliminate property rights which existed before the law was
enacted in the absence of an explicit command from
Congress.” Id. at 81 (emphasis added). There, the Supreme Court concluded that 11 U.S.C. § 522(f)(2), a recently enacted provision of the Bankruptcy Reform
Act of 1978, did not apply retroactively.18 Id. at 82.
Whether or not there is a property right at issue, as
said, Congress provided an explicit command at 48
U.S.C. § 2101(b)(2) to apply PROMESA retroactively.
Congress did not do so for the statute at issue in Security Industrial Bank. See 459 U.S. at 81.
The Bondholders rely on PROMESA’s “[a]pproval
of fiscal plans” provision for their interpretation argument, but that reliance is misplaced. 48 U.S.C.
§ 2141.
The Bondholders argue that, because
PROMESA requires the Board to develop a “Fiscal
Plan” that “respect[s] the relative lawful priorities or
lawful liens, as may be applicable, in the constitution,
other laws, or agreements of a covered territory or covered territorial instrumentality in effect prior to June
18

Security Industrial Bank did not address any issues regarding PROMESA or the application of an existing bankruptcy provision to a previously unprotected debtor.

38a
30, 2016,” id. § 2141(b)(1)(N), Congress intended that
PROMESA not alter the “status quo” existing before
PROMESA’s enactment. But this provision governs
only the Board’s Fiscal Plan, not the operation of Title
III of PROMESA. We cannot read it to find Congress
did not intend for § 552 to apply retroactively, in light
of the express language earlier. We reject the Bondholders’ prospective construction argument.
VI.
Conclusion
We emphasize that we decide each of these three
claims narrowly, based on these specific facts.
Affirmed. Costs are awarded to the Board.

39a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
No. 19-1699
IN RE: THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE COMMONWEALTH OF
PUERTO RICO; THE FINANCIAL OVERSIGHT
AND MANAGEMENT BOARD FOR PUERTO
RICO, AS REPRESENTATIVE FOR THE PUERTO
RICO HIGHWAYS AND TRANSPORTATION AUTHORITY; THE FINANCIAL OVERSIGHT AND
MANAGEMENT BOARD FOR PUERTO RICO, AS
REPRESENTATIVE FOR THE PUERTO RICO
ELECTRIC POWER AUTHORITY (PREPA); THE
FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE PUERTO RICO SALES TAX FINANCING CORPORATION, a/k/a Cofina; THE FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE EMPLOYEES RETIREMENT SYSTEM OF THE GOVERNMENT OF THE COMMONWEALTH OF PUERTO RICO,
Debtors.
THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE EMPLOYEES RETIREMENT SYSTEM OF THE GOVERNMENT OF THE
COMMONWEALTH OF PUERTO RICO,
Plaintiff, Appellee,

40a
OFFICIAL COMMITTEE OF RETIRED EMPLOYEES OF THE COMMONWEALTH OF
PUERTO RICO,
Interested Party, Appellee,
v.
ANDALUSIAN GLOBAL DESIGNATED ACTIVITY
COMPANY; GLENDON OPPORTUNITIES FUND,
LP; MASON CAPITAL MASTER FUND LP; OAKTREE OPPORTUNITIES FUND IX (PARALLEL 2),
L.P.; OAKTREE OPPORTUNITIES FUND IX, L.P.;
OAKTREE VALUE OPPORTUNITIES FUND, L.P.;
OAKTREE-FORREST MULTI-STRATEGY, L.L.C.
(SERIES B); OCHER ROSE, L.L.C.;
SV CREDIT, L.P.,
Defendants, Appellants,
PUERTO RICO AAA PORTFOLIO BOND FUND II,
INC.; PUERTO RICO AAA PORTFOLIO BOND
FUND, INC.; PUERTO RICO AAA PORTFOLIO
TARGET MATURITY FUND, INC.; PUERTO RICO
FIXED INCOME FUND II, INC.; PUERTO RICO
FIXED INCOME FUND III, INC.; PUERTO RICO
FIXED INCOME FUND IV, INC.; PUERTO RICO
FIXED INCOME FUND V, INC.; PUERTO RICO
FIXED INCOME FUND, INC.; PUERTO RICO
GNMA AND U.S. GOVERNMENT TARGET MATURITY FUND, INC.; PUERTO RICO INVESTORS
BOND FUND I, INC.; PUERTO RICO INVESTORS
TAX-FREE FUND II, INC.; PUERTO RICO INVESTORS TAX-FREE FUND III, INC.; PUERTO RICO
INVESTORS TAX-FREE FUND IV, INC.; PUERTO
RICO INVESTORS TAX-FREE FUND V, INC.;
PUERTO RICO INVESTORS TAX-FREE FUND VI,
INC.; PUERTO RICO INVESTORS TAX-FREE

41a
FUND, INC.; PUERTO RICO MORTGAGE-BACKED & U.S. GOVERNMENT SECURITIES FUND, INC.; TAX-FREE PUERTO RICO
FUND II, INC.; TAX-FREE PUERTO RICO FUND,
INC.; TAX-FREE PUERTO RICO TARGET MATURITY FUND, INC.; UBS IRA SELECT GROWTH
& INCOME PUERTO RICO FUND; ALTAIR
GLOBAL CREDIT OPPORTUNITIES FUND (A),
LLC; NOKOTA CAPITAL MASTER FUND, L.P.,
Defendants.
No. 19-1700
IN RE: THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE COMMONWEALTH OF
PUERTO RICO; THE FINANCIAL OVERSIGHT
AND MANAGEMENT BOARD FOR PUERTO
RICO, AS REPRESENTATIVE FOR THE PUERTO
RICO HIGHWAYS AND TRANSPORTATION AUTHORITY; THE FINANCIAL OVERSIGHT AND
MANAGEMENT BOARD FOR PUERTO RICO, AS
REPRESENTATIVE FOR THE PUERTO RICO
ELECTRIC POWER AUTHORITY (PREPA); THE
FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE PUERTO RICO SALES TAX FINANCING CORPORATION, a/k/a Cofina; THE FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE EMPLOYEES RETIREMENT SYSTEM OF THE GOVERNMENT OF THE COMMONWEALTH OF PUERTO RICO,
Debtors.

42a
THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE EMPLOYEES RETIREMENT SYSTEM OF THE GOVERNMENT OF THE
COMMONWEALTH OF PUERTO RICO,
Plaintiff, Appellee,
OFFICIAL COMMITTEE OF RETIRED EMPLOYEES OF THE COMMONWEALTH OF
PUERTO RICO,
Interested Party, Appellee,
v.
PUERTO RICO AAA PORTFOLIO TARGET MATURITY FUND, INC.; PUERTO RICO AAA PORTFOLIO BOND FUND, INC.; PUERTO RICO AAA
PORTFOLIO BOND FUND II, INC.; PUERTO RICO
FIXED INCOME FUND II, INC.; PUERTO RICO
FIXED INCOME FUND III, INC.; PUERTO RICO
FIXED INCOME FUND IV, INC.; PUERTO RICO
FIXED INCOME FUND V, INC.; PUERTO RICO
FIXED INCOME FUND, INC.; PUERTO RICO
GNMA AND U.S. GOVERNMENT TARGET MATURITY FUND, INC.; PUERTO RICO INVESTORS
BOND FUND I, INC.; PUERTO RICO INVESTORS
TAX-FREE FUND II, INC.; PUERTO RICO INVESTORS TAX-FREE FUND III, INC.; PUERTO RICO
INVESTORS TAX-FREE FUND IV, INC.; PUERTO
RICO INVESTORS TAX-FREE FUND V, INC.;
PUERTO RICO INVESTORS TAX-FREE FUND VI,
INC.; PUERTO RICO INVESTORS TAX-FREE
FUND, INC.; PUERTO RICO MORTGAGEBACKED & U.S. GOVERNMENT SECURITIES
FUND, INC.; TAX-FREE PUERTO RICO FUND II,
INC.; TAX-FREE PUERTO RICO FUND, INC.;

43a
TAX-FREE PUERTO RICO TARGET MATURITY
FUND, INC.,
Defendants, Appellants,
ALTAIR GLOBAL CREDIT OPPORTUNITIES
FUND (A), LLC; ANDALUSIAN GLOBAL DESIGNATED ACTIVITY COMPANY; GLENDON OPPORTUNITIES FUND, LP; MASON CAPITAL
MASTER FUND LP; NOKOTA CAPITAL MASTER
FUND, L.P.; OAKTREE OPPORTUNITIES FUND
IX (PARALLEL 2), L.P.; OAKTREE OPPORTUNITIES FUND IX, L.P.; OAKTREE VALUE OPPORTUNITIES FUND, L.P.; OAKTREE-FORREST
MULTI-STRATEGY, L.L.C. (SERIES B); OCHER
ROSE, L.L.C.; SV CREDIT, L.P.; UBS IRA SELECT
GROWTH & INCOME PUERTO RICO FUND,
Defendants.
___________________
ERRATA SHEET
The opinion of this Court, issued on January 30,
2020, is amended as follows:
On page 19, line 5, insert a new footnote after “Enabling Act”.
We are not faced with and do not decide the
issues pending before the Title III court concerning liens on prepetition Additional Uniform Contributions. See Adversary Complaint, Fin. Oversight & Mgmt. Bd. for P.R. v.
Glendon Opportunities Fund LP (In re Fin.
Oversight & Mgmt. Bd. for P.R.), No. 1900367-LTS (D.P.R. May 20, 2019), ECF No. 1.

44a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
No. 19-1699
IN RE: THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE COMMONWEALTH OF
PUERTO RICO; THE FINANCIAL OVERSIGHT
AND MANAGEMENT BOARD FOR PUERTO
RICO, AS REPRESENTATIVE FOR THE PUERTO
RICO HIGHWAYS AND TRANSPORTATION AUTHORITY; THE FINANCIAL OVERSIGHT AND
MANAGEMENT BOARD FOR PUERTO RICO, AS
REPRESENTATIVE FOR THE PUERTO RICO
ELECTRIC POWER AUTHORITY (PREPA); THE
FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE PUERTO RICO SALES TAX FINANCING CORPORATION, a/k/a Cofina; THE FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE EMPLOYEES RETIREMENT SYSTEM OF THE GOVERNMENT OF THE COMMONWEALTH OF PUERTO RICO,
Debtors.
___________________
THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE EMPLOYEES RETIREMENT SYSTEM OF THE GOVERNMENT OF THE
COMMONWEALTH OF PUERTO RICO,
Plaintiff, Appellee,

45a
OFFICIAL COMMITTEE OF RETIRED EMPLOYEES OF THE COMMONWEALTH OF
PUERTO RICO,
Interested Party, Appellee,
v.
ANDALUSIAN GLOBAL DESIGNATED ACTIVITY
COMPANY; GLENDON OPPORTUNITIES FUND,
LP; MASON CAPITAL MASTER FUND LP; OAKTREE OPPORTUNITIES FUND IX (PARALLEL 2),
L.P.; OAKTREE OPPORTUNITIES FUND IX, L.P.;
OAKTREE VALUE OPPORTUNITIES FUND, L.P.;
OAKTREE-FORREST MULTI-STRATEGY, L.L.C.
(SERIES B); OCHER ROSE, L.L.C.;
SV CREDIT, L.P.,
Defendants, Appellants,
PUERTO RICO AAA PORTFOLIO BOND FUND II,
INC.; PUERTO RICO AAA PORTFOLIO BOND
FUND, INC.; PUERTO RICO AAA PORTFOLIO
TARGET MATURITY FUND, INC.; PUERTO RICO
FIXED INCOME FUND II, INC.; PUERTO RICO
FIXED INCOME FUND III, INC.; PUERTO RICO
FIXED INCOME FUND IV, INC.; PUERTO RICO
FIXED INCOME FUND V, INC.; PUERTO RICO
FIXED INCOME FUND, INC.; PUERTO RICO
GNMA AND U.S. GOVERNMENT TARGET MATURITY FUND, INC.; PUERTO RICO INVESTORS
BOND FUND I, INC.; PUERTO RICO INVESTORS
TAX-FREE FUND II, INC.; PUERTO RICO INVESTORS TAX-FREE FUND III, INC.; PUERTO RICO
INVESTORS TAX-FREE FUND IV, INC.; PUERTO
RICO INVESTORS TAX-FREE FUND V, INC.;
PUERTO RICO INVESTORS TAX-FREE FUND VI,
INC.; PUERTO RICO INVESTORS TAX-FREE
FUND, INC.; PUERTO RICO MORTGAGE-

46a
BACKED & U.S. GOVERNMENT SECURITIES
FUND, INC.; TAX-FREE PUERTO RICO FUND II,
INC.; TAX-FREE PUERTO RICO FUND, INC.; TAXFREE PUERTO RICO TARGET MATURITY FUND,
INC.; UBS IRA SELECT GROWTH & INCOME
PUERTO RICO FUND; ALTAIR GLOBAL CREDIT
OPPORTUNITIES FUND (A), LLC; NOKOTA CAPITAL MASTER FUND, L.P.,
Defendants.
___________________
No. 19-1700
IN RE: THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE COMMONWEALTH OF
PUERTO RICO; THE FINANCIAL OVERSIGHT
AND MANAGEMENT BOARD FOR PUERTO
RICO, AS REPRESENTATIVE FOR THE PUERTO
RICO HIGHWAYS AND TRANSPORTATION AUTHORITY; THE FINANCIAL OVERSIGHT AND
MANAGEMENT BOARD FOR PUERTO RICO, AS
REPRESENTATIVE FOR THE PUERTO RICO
ELECTRIC POWER AUTHORITY (PREPA); THE
FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE PUERTO RICO SALES TAX FINANCING CORPORATION, a/k/a Cofina; THE FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE EMPLOYEES RETIREMENT SYSTEM OF THE GOVERNMENT OF THE COMMONWEALTH OF PUERTO RICO,
Debtors.
___________________

47a
THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE EMPLOYEES RETIREMENT SYSTEM OF THE GOVERNMENT OF THE
COMMONWEALTH OF PUERTO RICO,
Plaintiff, Appellee,
OFFICIAL COMMITTEE OF RETIRED EMPLOYEES OF THE COMMONWEALTH OF
PUERTO RICO,
Interested Party, Appellee,
v.
PUERTO RICO AAA PORTFOLIO TARGET MATURITY FUND, INC.; PUERTO RICO AAA PORTFOLIO BOND FUND, INC.; PUERTO RICO AAA
PORTFOLIO BOND FUND II, INC.; PUERTO RICO
FIXED INCOME FUND II, INC.; PUERTO RICO
FIXED INCOME FUND III, INC.; PUERTO RICO
FIXED INCOME FUND IV, INC.; PUERTO RICO
FIXED INCOME FUND V, INC.; PUERTO RICO
FIXED INCOME FUND, INC.; PUERTO RICO
GNMA AND U.S. GOVERNMENT TARGET MATURITY FUND, INC.; PUERTO RICO INVESTORS
BOND FUND I, INC.; PUERTO RICO INVESTORS
TAX-FREE FUND II, INC.; PUERTO RICO INVESTORS TAX-FREE FUND III, INC.; PUERTO RICO
INVESTORS TAX-FREE FUND IV, INC.; PUERTO
RICO INVESTORS TAX-FREE FUND V, INC.;
PUERTO RICO INVESTORS TAX-FREE FUND VI,
INC.; PUERTO RICO INVESTORS TAX-FREE
FUND, INC.; PUERTO RICO MORTGAGEBACKED & U.S. GOVERNMENT SECURITIES
FUND, INC.; TAX-FREE PUERTO RICO FUND II,
INC.; TAX-FREE PUERTO RICO FUND, INC.;

48a
TAX-FREE PUERTO RICO TARGET MATURITY
FUND, INC.,
Defendants, Appellants,
ALTAIR GLOBAL CREDIT OPPORTUNITIES
FUND (A), LLC; ANDALUSIAN GLOBAL DESIGNATED ACTIVITY COMPANY; GLENDON OPPORTUNITIES FUND, LP; MASON CAPITAL
MASTER FUND LP; NOKOTA CAPITAL MASTER
FUND, L.P.; OAKTREE OPPORTUNITIES FUND
IX (PARALLEL 2), L.P.; OAKTREE OPPORTUNITIES FUND IX, L.P.; OAKTREE VALUE OPPORTUNITIES FUND, L.P.; OAKTREE-FORREST
MULTI-STRATEGY, L.L.C. (SERIES B); OCHER
ROSE, L.L.C.; SV CREDIT, L.P.; UBS IRA SELECT
GROWTH & INCOME PUERTO RICO FUND,
Defendants.
___________________
JUDGMENT
Entered: January 30, 2020
This cause came on to be heard on appeal from the
United States District Court for the District of Puerto
Rico and was argued by counsel.
Upon consideration whereof, it is now here ordered, adjudged and decreed as follows: The judgment of the district court is affirmed. Costs are
awarded to the Financial Oversight and Management
Board for Puerto Rico.
By the Court:
Maria R. Hamilton, Clerk

49a
cc:
Alfredo Fernandez-Martinez
Geoffrey S. Stewart
Sparkle Leah Sooknanan
Beth Heifetz
Benjamin Rosenblum
Bruce Bennett
Parker Andrew Rider-Longmaid
James M. Gross
Isel Maria Perez
David Robert Fox
Glenn Kurtz
Jose Carlos Sanchez-Castro
Alicia Irene Lavergne-Ramirez
Maraliz Vazquez-Marrero
Jason Zakia
John K. Cunningham
Hermann D. Bauer-Alvarez
Timothy W. Mungovan
Luis Francisco Del-Valle-Emmanuelli
Chantel L. Febus
Michael R. Hackett
Stephen L. Ratner
Margaret Antinori Dale
John E. Roberts
Mark David Harris
Martin J. Bienenstock
Ehud Barak
Paul V. Possinger
William D. Dalsen
Jeffrey W. Levitan
Kevin J. Perra
Antonio Juan Bennazar-Zequeira
Ian Heath Gershengorn
Richard B. Levin
Lindsay C. Harrison

50a
Robert D. Gordon
Catherine Steege
Melissa M. Root
Wandymar Burgos-Vargas
Donald B. Verrilli Jr.
Susana I. Penagaricano Brown
Carla Garcia-Benitez
Ubaldo M. Fernandez
Daniel Jose Perez-Refojos
Michael Luskin
Stephan E. Hornung
Chad Golder
Michael A. Firestein
Lary Alan Rappaport
Ginger D. Anders
Jennifer L. Roche
Rachel G. Miller Ziegler
Guy Brenner
Ralph C. Ferrara
Ann M. Ashton
Andres W. Lopez
Raul Castellanos-Malave
Joseph P. Davis III
Katiuska Bolanos-Lugo Michael S. Raab
Mark R. Freeman
Michael Shih

51a
APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
In re:
THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR
PUERTO RICO,
as representative of

PROMESA
Title III
Case No.
17 BK 3283-LTS
(Jointly Administered)

THE COMMONWEALTH
OF PUERTO RICO, et al.,
Debtors.1

1

The Debtors in these Title III Cases, along with each Debtor’s
respective Title III case number and the last four (4) digits of
each Debtor’s federal tax identification number, as applicable,
are the (i) Commonwealth of Puerto Rico (Bankruptcy Case No.
17 BK 3283-LTS) (Last Four Digits of Federal Tax ID: 3481); (ii)
Puerto Rico Sales Tax Financing Corporation (“COFINA”)
(Bankruptcy Case No. 17 BK 3284-LTS) (Last Four Digits of Federal Tax ID: 8474); (iii) Puerto Rico Highways and Transportation Authority (“HTA”) (Bankruptcy Case No. 17 BK 3567-LTS)
(Last Four Digits of Federal Tax ID: 3808); (iv) Employees Retirement System of the Government of the Commonwealth of
Puerto Rico (“ERS”) (Bankruptcy Case No. 17 BK 3566-LTS)
(Last Four Digits of Federal Tax ID: 9686); and (v) Puerto Rico
Electric Power Authority (“PREPA”) (Bankruptcy Case No. 17
BK 4780-LTS) (Last Four Digits of Federal Tax ID: 3747) (Title
III case numbers are listed as Bankruptcy Case numbers due to
software limitations).

52a
THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR
PUERTO RICO,
as representative of
THE EMPLOYEES RETIREMENT SYSTEM OF
THE GOVERNMENT OF
THE COMMONWEALTH
OF PUERTO RICO,

Case No. 17 BK
3566-LTS

Debtors.
THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR
PUERTO RICO,
as representative of,
THE EMPLOYEES RETIREMENT SYSTEM OF
THE GOVERNMENT OF
THE COMMONWEALTH
OF PUERTO RICO,
Plaintiff,
-againstANDALUSIAN GLOBAL
DESIGNATED ACTIVITY
COMPANY, et al.,
DefendantsCounterclaimants.

Adv. Proc. No. 17213-LTS

53a
OPINION AND ORDER GRANTING PLAINTIFF’S MOTION
FOR SUMMARY JUDGMENT AS TO COUNT III AND COUNTERCLAIMS II AND III, AND DENYING DEFENDANTS’ MOTION FOR SUMMARY JUDGMENT
APPEARANCES:
PROSKAUER ROSE
LLP
By: Steven O. Weise
Martin J.
Bienenstock
Timothy W. Mungovan
Kevin J. Perra
Paul V. Possinger
Eleven Times Square
New York, NY 10036
LUIS F. DEL VALLEEMMANUELLI
By: Luis F. del ValleEmmanuelli
USDC-PR No. 209514
P.O. Box 79897
Carolina, Puerto Rico
00984-9897

DELGADO & FERNÁNDEZ, LLC
By: Alfredo FernándezMartínez
PO Box 11750
Fernández Juncos Station
San Juan, Puerto Rico
00910-1750
JONES DAY
By: Bruce Bennett
555 South Flower Street
Fiftieth Floor
Los Angeles, California
90071
and

54a
Counsel for Plaintiff the
Financial Oversight and
Management Board for
Puerto Rico, as representative of the Employees Retirement System of
the Government of the
Commonwealth of Puerto
Rico

Benjamin Rosenblum
Victoria Dorfman
250 Vesey Street
New York, NY 10281
and
Geoffrey S. Stewart
Beth Heifetz
Christopher J.
DiPompeo
JENNER & BLOCK LLP 51 Louisiana Ave. N.W.
By: Robert Gordon
Washington, DC 20001
Richard Levin
919 Third Ave
Counsel for Defendants
New York, NY 10022ERS Bondholders An3908
dalusian Global Desigand
nated Activity ComCatherine Steege
pany, Glendon OpportuMelissa Root
nities Fund, L.P., Ma353 N. Clark Street
son Capital ManageChicago, IL 60654
ment, LLC, OaktreeForrest Multi- Strategy,
BENNAZAR, GARCÍA & LLC (Series B), Oaktree
MILIÁN, C.S.P.
Opportunities Fund IX,
By: A.J. BennazarL.P., Oaktree OpportuZequeira
nities Fund IX (Parallel
Héctor Mayol Kauff- 2), L.P., Oaktree Value
mann
Opportunities Fund,
Edificio Union Plaza
L.P., Ocher Rose,
PH-A piso 18
L.L.C., and SV Credit,
Avenida Ponce de León
L.P.
#416
Hato Rey, San Juan
SÁNCHEZ PIRILLO
Puerto Rico 00918
LLC
By: José C. SánchezCastro

55a
Counsel for Intervenor
the Official Committee of
Retired Employees of
Puerto Rico

Alicia I. LavergneRamírez
Maraliz VázquezMarrero
270 Muñoz Rivera Avenue, Suite 1110
San Juan, PR 00918
WHITE & CASE LLP
By: John K. Cunningham
Glenn M. Kurtz
1221 Avenue of the
Americas
New York, NY 10036
and
Jason N. Zakia
Cheryl T. Sloane
200 S. Biscayne Blvd.,
Suite 4900
Miami, FL 33131
Counsel for Defendants
Puerto Rico AAA Portfolio Bond Fund, Inc.,
Puerto Rico AAA Portfolio Bond Fund II, Inc.,
Puerto Rico AAA Portfolio Target Maturity
Fund, Inc., Puerto Rico
Fixed Income Fund,
Inc., Puerto Rico Fixed
Income Fund II, Inc.,
Puerto Rico Fixed Income Fund III, Inc.,

56a
Puerto Rico Fixed Income Fund IV, Inc.,
Puerto Rico Fixed Income Fund V, Inc.,
Puerto Rico GNMA &
U.S. Government Target Maturity Fund, Inc.,
Puerto Rico Investors
Bond Fund I, Puerto
Rico Investors Tax-Free
Fund, Inc., Puerto Rico
Investors Tax-Free
Fund, Inc. II, Puerto
Rico Investors Tax-Free
Fund III, Inc., Puerto
Rico Investors Tax-Free
Fund IV, Inc., Puerto
Rico Investors Tax-Free
Fund V, Inc., Puerto
Rico Investors Tax- Free
Fund VI, Inc., Puerto
Rico Mortgage-Backed
& U.S. Government Securities Fund, Inc., TaxFree Puerto Rico Fund,
Inc., Tax-Free Puerto
Rico Fund II, Inc., TaxFree Puerto Rico Target
Maturity Fund, Inc.,
and UBS IRA Select
Growth & Income
Puerto Rico Fund

57a
LAURA TAYLOR SWAIN,
United States District Judge
The Employees Retirement System of the Government of the Commonwealth of Puerto Rico (“ERS” or
“Plaintiff”), by and through the Financial Oversight
and Management Board for Puerto Rico (the “Oversight Board”), commenced this adversary proceeding
against certain secured bondholders of ERS (the “Defendants” or the “Bondholders”2) pursuant to the
terms of a stipulation entered into by the parties on
July 14, 2017. (See Docket Entry No. 40 in Adversary
Proceeding No. 17-00213,3 Ex. B (the “Stipulation”).)
The terms of the Stipulation provided, in relevant
part, that on or before July 21, 2017, ERS “shall file
an adversary complaint with this Court, seeking
solely declaratory relief regarding . . . the validity, priority, extent and enforceability of the prepetition and
postpetition liens and security interests asserted by
the Bondholders with respect to the ERS Bonds.”
(Stip. ¶ 6.A.) The Stipulation further provided, in relevant part, that the Bondholders “shall have the right,
but not the obligation, to counterclaim on . . . matters
pertinent to the main claims.” (Id.) ERS filed the
Complaint on July 21, 2017, seeking declarations con-

2
Capitalized terms not defined herein shall have the meaning
ascribed to them in the Adversary Complaint (Docket Entry No.
1, the “Complaint”). The parties’ claims and counterclaims relating to Altair Global Credit Opportunities Fund (A), LLC and Nokota Capital Master Fund, L.P. were dismissed without prejudice pursuant to the Order Regarding Dismissal Without Prejudice of Certain Defendants-Counterclaimants Pursuant to Fed. R.
Civ. P. 41(a)(1)(A)(ii) and Fed. R. Bankr. P. 7041 (Docket Entry
No. 234).
3
All docket entry references are to entries in Adversary Proceeding No. 17-00213, unless otherwise specified.

58a
cerning the scope, validity, and perfection of Defendants’ asserted security interest. Defendants filed the
Answer and Counterclaims (Docket Entry No. 36, the
“Answer”), asserting nine counterclaims seeking declaratory relief with respect to the scope, validity, and
perfection of their asserted security interest. On November 3, 2017, the parties filed cross-motions for
summary judgment. (See Docket Entry No. 91, the
“Plaintiff’s Motion” and Docket Entry No. 94-1, the
“Defendants’ Motion.”)
On August 17, 2018, this Court issued the Opinion
and Order Granting and Denying in Part Cross Motions for Summary Judgment (“MSJ Order”), granting
in part summary judgment in favor of ERS and denying Defendants’ Motion in its entirety. See Financial
Oversight & Mgmt. Bd. for P.R. v. Altair Glob. Credit
Opportunities Fund (a), LLC, et al. (In re Fin. Oversight & Mgmt. Bd. for P.R.), 590 B.R. 577 (D.P.R.
2018). The Court based its decision principally on the
finding that Defendants did not possess a perfected
security interest in any of the Pledged Property as defined in the Resolution. On appeal, the United States
Court of Appeals for the First Circuit reversed and vacated this Court’s determination regarding perfection,
holding instead that Defendants had “satisfied the filing requirements for perfection as of December 17,
2015,” and remanded for further proceedings two of
Defendants’ counterclaims that had not yet been addressed in light of the previous disposition. Altair
Glob. Credit Opportunities Fund (a), LLC v. Fin.
Oversight & Mgmt. Bd. for P.R. (In re Fin. Oversight
& Mgmt. Bd. for P.R.), 914 F.3d 694, 703 (1st Cir.
2019).
Following remand, the parties jointly requested
that the Court determine an issue encompassed by

59a
Count III of the Complaint and Counterclaims II and
III of the Answer that had been briefed by the parties
in connection with their cross-motions for summary
judgment but was not addressed by the Court in its
MSJ Order.4 This issue, defined by the parties as the
“Section 552 Issue,” concerns the “applicability of Section 552(a) of the Bankruptcy Code and whether it
prevented any security interest from attaching to revenues received by ERS during the post-petition period” and is now ripe for adjudication. (Docket Entry
No. 247, Joint Informative Motion Regarding Recommended Procedure Concerning Filing of the Employees
Retirement System of the Government of the Commonwealth of Puerto Rico’s Amended Complaint and Adjudication of Undecided Issue (the “Joint Informative
Motion”), at ¶ 3.) The parties agreed on the portion of
the prior record upon which the Section 552 Issue
should be determined, enumerating relevant materials in Exhibit B to the Joint Informative Motion.
The Court has considered carefully all of the arguments and submissions cited by the parties in connection with the Section 552 Issue. For the following reasons, summary judgment is granted in favor of ERS

4

Count III of the Complaint seeks a declaration that “section
552(a) . . . prevents any security interest from attaching to Revenues received by ERS during the postpetition period.” (Compl.
¶ 143.) Counterclaim II of the Answer seeks a declaration that
the Bondholders “hold valid, enforceable, attached, perfected,
first priority liens on and security interests in the Pledged Property whether ERS became entitled to collect such property before
or after the commencement of the ERS’s Title III case.” (Answer
¶ 247.) Counterclaim III of the Answer seeks a declaration that,
“because the employer contributions constitute ‘special revenues,’ [the Bondholders’] security interest in and liens on employer contributions received by the ERS after the Petition Date
remain enforceable pursuant to 11 U.S.C. § 928(a).” (Id. ¶ 257.)

60a
and denied in favor of Defendants with respect to
Count III of the Complaint and Counterclaims II and
III of the Answer.
I.

BACKGROUND

The following facts are undisputed unless otherwise indicated.5 The Court found the following facts
to be undisputed in its MSJ Order:
On May 15, 1951, the legislature of the
Commonwealth of Puerto Rico (the “Commonwealth” or “Puerto Rico”) enacted Act No. 4471951 (codified, as amended, at 3 L.P.R.A.
§§ 761–788, the “Enabling Act”). (Pl.’s 56(b)
¶ 1; Defs.’ 56(b) ¶ 10.) The Enabling Act established ERS to administer the payment of
pensions and certain other benefits for the retired employees of the Commonwealth, certain public corporations in Puerto Rico, and
certain municipalities. See 3 L.P.R.A. § 761
(2016). As originally codified, the official English-language version of the Enabling Act denominated the retirement and benefits system as the “Employees Retirement System of
the Insular Government of Puerto Rico and its

5

Facts characterized as undisputed are identified as such in
the parties’ statements pursuant to D.P.R. Local Civil Rule 56(b)
or drawn from evidence as to which there has been no contrary,
non-conclusory factual proffer. Citations to the parties’ respective Local Civil Rule 56(b) Statements (Docket Entry No. 95
(“Defs.’ 56(b)”) or Docket Entry No. 93 (“Pl.’s 56(b)”)) incorporate
by reference the parties’ citations to underlying evidentiary submissions. The Court declines to address assertions proffered by
the parties that are immaterial or conclusory statements of law
which the parties proffer as facts.

61a
Instrumentalities.” (Docket Entry No. 92, the
“Possinger Declaration,” Ex. 1.)6
The Enabling Act provides that ERS may
both issue debt and secure such debt with the
assets of ERS. On January 24, 2008, ERS issued senior and subordinate pension funding
bonds (collectively, the “ERS Bonds”) pursuant to a Pension Funding Bond Resolution
(Compl., Ex. D, the “Resolution”). (Pl.’s 56(b)
¶ 4; Defs.’ 56(b) ¶ 22.) Pursuant to the Resolution, the holders of the ERS Bonds (the
“ERS Bondholders” or “Bondholders”) were
granted a security interest in certain “Pledged
Property.” Specifically, Pledged Property is
defined in the Resolution to include the following:

6

1.

All Revenues.

2.

All right, title and interest of the System
in and to Revenues, and all rights to receive the same.

3.

The Funds, Accounts, and Subaccounts
held by the Fiscal Agent, and moneys and
securities and, in the case of the Debt Service Reserve Account, Reserve Account
Cash Equivalents, from time to time held
by the Fiscal Agent under the terms of
this Resolution, subject to the application
thereof as provided in this Resolution and

The official English-language version of the Enabling Act, as
amended in 2013, designates the retirement and benefits system
as the “Retirement System for Employees of the Government of
the Commonwealth of Puerto Rico.” See 3 L.P.R.A. § 761 (2016).

62a
to the provisions of Sections 1301 and
1303.
4.

Any and all other rights and personal
property of every kind and nature from
time to time hereafter pledged and assigned by the System to the Fiscal Agent
as and for additional security for the
Bonds and Parity Obligations.

5.

Any and all cash and non-cash proceeds,
products, offspring, rents and profits from
any of the Pledged Property mentioned
described in paragraphs (1) through (4)
above, including, without limitation,
those from the sale, exchange, transfer,
collection, loss, damage, disposition, substitution or replacement of any of the foregoing.

(Resolution at VI-36.)
“Revenues” as follows:

7

The Resolution defines

1.

All Employers’ Contributions7 received by
the System or the Fiscal Agent.

2.

With respect to any particular Bonds, the
proceeds of any draw on or payment under any Credit Facility which is intended
for the payment of such Bonds, but only
for purposes of such payment and not for
other purposes of this Resolution.

The Resolution provides that “Employers’ Contributions
shall mean the contributions paid from and after the date hereof
that are made by the Employers and any assets in lieu thereof or
derived thereunder which are payable to the System pursuant to
Sections 2-116, 3-105 and 4-113 of the [Enabling] Act.” (Resolution at VI-33.)

63a
3.

Net amounts received by the System pursuant to a Qualified Hedge.

4.

Income and interest earned and gains realized in excess of losses suffered by any
Fund, Account, or Subaccount held by the
Fiscal Agent under the terms of this Resolution, subject to the provisions of Sections 1301 and 1303.

5.

Any other revenues, fees, charges, surcharges, rents, proceeds or other income
and receipts received by or on behalf of
the System or by the Fiscal Agent lawfully available for the purposes of this
Resolution and deposited by or on behalf
of the System or by the Fiscal Agent in
any Fund, Account, or Subaccount held by
the Fiscal Agent under the terms of this
Resolution, subject to the provisions of
Sections 1301 and 1303.

(Id. at VI-37.)
The Resolution is publicly available both
electronically on the websites of the Government Development Bank, ERS, and the Electronic Municipal Market Access System, and
in the hard copy records of ERS. (Defs.’ 56(b)
¶ 42; see also Docket Entry No. 116, “Plaintiff’s 56(b) Response,” ¶ 42.)
On June 2, 2008, ERS executed a security
agreement (Compl., Ex. E, the “Security
Agreement”) in connection with the Resolution. The Security Agreement grants, for the
benefit of the ERS Bondholders, “a security interest in (i) the Pledged Property, and (ii) all

64a
proceeds thereof and all after-acquired property, subject to application as permitted by the
Resolution.” (Id.) The Security Agreement
does not include a definition of the term
“Pledged Property,” instead providing that
“[a]ll capitalized words not defined herein
shall have the meanings ascribed to them in
the Resolution.” (Id.)
In re Fin. Oversight & Mgmt. Bd. for P.R., 590 B.R. at
583-85.
As noted in footnote 7 above, the Resolution defines “Employers’ Contributions” as “contributions
paid from and after the date hereof that are made by
Employers,” as well as “any assets in lieu thereof or
derived thereunder which are payable to [ERS] pursuant to Sections 2-116, 3-105 and 4-113 of the [Enabling] Act.”8 (Pl.’s 56(b) ¶ 8; Defs.’ 56(b) ¶ 31.) The
Resolution further provided that, upon adoption of the
Resolution, the Pledged Property was “immediately . .
. subject to the lien of th[e] pledge, assignment and
security interest without any physical delivery thereof
or further act,” and the security interests in and liens
8

At the time of the ERS Bond Resolution, Section 2-116 of the
Enabling Act set forth various provisions governing Employers’
Contributions, including the requirement that “the employer
shall contribute to [ERS] a minimum percentage equal to 9.275%
of the compensation regularly received by the participants.” 3
L.P.R.A. § 781(d) (2008). Section 3-105 of the Enabling Act provided that every employer “shall compulsorily contribute to
[ERS] a sum equal to . . . 9.275% of the salary of each participant
of the Program as long as the participant is an employee.” 3
L.P.R.A. § 786-5 (2008). Section 4-113 of the Enabling Act provides that “the contributions required from the employer, as well
as all annuities, benefits, reimbursements, and administration
expenses, shall constitute obligations of the employer.” 3
L.P.R.A. § 787 (2008).

65a
on the Pledged Property became “valid and binding as
against all parties having claims of any kind in tort,
contract or otherwise against the [ERS], irrespective
of whether such parties have notice thereof.” (Defs.’
56(b) ¶ 33.) At the time of the adoption of the Resolution in 2008, the ERS Enabling Act required employers to contribute a set percentage of the contribution
of each employee participant during the term of the
participant’s employment to ERS. (Pl.’s 56(b) ¶ 9,
Defs.’ 56(b) ¶ 15; see also 3 L.P.R.A. § 781(d) (2008).)
In 2013, the legislature of Puerto Rico enacted Act 32013, which amended the Enabling Act effective July
1, 2013.
Two UCC-1 financing statements were filed with
the Department of State of the Government of Puerto
Rico (the “Department of State”) in 2008, and two
amendment forms corresponding to each of the 2008
UCC-1s were received by the Department of State on
or about December 17, 2015. (Pl.’s 56(b) ¶¶ 18, 23,
29.) Although the 2008 financing statements were insufficient to perfect the security interest under P.R.
Laws Ann. Tit. 19, § 2152(1) (2008), the 2015 financing statement amendments met the requirements for
perfection as of December 17, 2015. See In re Fin.
Oversight & Mgmt. Bd. for P.R., 914 F.3d at 710, 719.
Additionally, both the Commonwealth and the Oversight Board acknowledged the validity of the Bondholders’ security interests and liens in court filings at
various times prior to the commencement of proceedings for ERS under Title III of the Puerto Rico Oversight, Management, and Economic Stability Act
(“PROMESA”), 48 U.S.C. § 2194. (Defs.’ 56(b) ¶ 59
(citing Commonwealth’s Br. in Opp’n, Altair Glob.
Credit Opportunities Fund (A), LLC, et al. v. Governor
Alejandro Garcia Padilla, et al., No. 16-cv-2696
(D.P.R.), Docket Entry No. 53, at 5 (stating that the

66a
“security interest and lien in favor of the ERS bondholders is indefinite, and ends only upon satisfaction
of ERS’s outstanding debt obligations”); Oversight
Board’s Br. in Opp’n, Altair Glob. Credit Opportunities Fund (A), LLC, et al. v. Governor Alejandro Garcia Padilla, et al., No. 16-cv-2696 (D.P.R.), Docket Entry No. 56, at 12 (stating that the “perpetual revenue
streams that secure [the Bondholders’] claims would
still be available for future payments under yet-to-be
negotiated fiscal plans or in future proceedings under
PROMESA”)).)
On May 21, 2017, a petition under Title III of
PROMESA was filed on behalf of ERS. Section 301 of
PROMESA incorporates certain sections of the Bankruptcy Code, which is codified in Title 11 of the United
States Code, including Bankruptcy Code Sections 552,
902 (in part), and 928. As of July 1, 2017, ERS stopped
receiving Employers’ Contributions due to the implementation of the 2017 Commonwealth Pay-Go statute, under which the Commonwealth pays public pensions and various government entities reimburse the
Commonwealth for those payments. This Opinion
and Order does not address the legal status of payments made under the Pay-Go system, which are currently the subject of a related contested matter. (See
Motion of Certain Secured Creditors of the Employees
Retirement System of the Government of the Commonwealth of Puerto Rico for Relief from the Automatic
Stay, Docket Entry No. 289 in Case No. 17-3566 (and
related pleadings).)

67a
II. DISCUSSION
The pending motions are brought pursuant to
Rule 56(a) of the Federal Rules of Civil Procedure.9
Under Rule 56(a), summary judgment is appropriate
when “the movant shows that there is no genuine dispute as to any material fact and the movant is entitled
to judgment as a matter of law.” Fed. R. Civ. P. 56(a).
Material facts are those that “possess[] the capacity to
sway the outcome of the litigation under the applicable law,” and there is a genuine factual dispute where
an issue “may reasonably be resolved in favor of either
party.” Vineberg v. Bissonnette, 548 F.3d 50, 56 (1st
Cir. 2008) (internal quotation marks and citations
omitted). The Court must “review the material presented in the light most favorable to the non-movant,
and [] must indulge all inferences favorable to that
party.” Petitti v. New England Tel. & Tel. Co., 909
F.2d 28, 31 (1st Cir. 1990) (internal quotation marks
and citations omitted). When a properly supported
motion for summary judgment is made, the non-moving party must set forth “specific facts showing that
there is a genuine issue for trial.” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 250 (1986) (internal quotation marks and citation omitted). The non-moving
party can avoid summary judgment only by providing
properly supported evidence of disputed material
facts. LeBlanc v. Great Am. Ins. Co., 6 F.3d 836, 84142 (1st Cir. 1993). Where the parties have made crossmotions for summary judgment, the court applies
these principles in evaluating each motion.

9

Federal Rule of Civil Procedure 56 is made applicable in this
adversary proceeding by Federal Rule of Bankruptcy Procedure
7056. See 48 U.S.C. § 2170.

68a
The Court will first address the application of Section 552 of the Bankruptcy Code to Defendants’ liens
in the Pledged Property.
A. Section 552 of the Bankruptcy Code
Count III of the Complaint seeks a declaration
that “section 552(a) of the Bankruptcy Code prevents
any security interest from attaching to Revenues received by ERS during the postpetition period.”
(Compl. ¶ 143.) Counterclaim II of Defendants’ Answer seeks a declaration that “the ERS Bondholders[]
hold valid, enforceable, attached, perfected, first priority liens on and security interests in the Pledged
Property whether ERS became entitled to collect such
property before or after the commencement of the
ERS’s Title III case.” (Answer ¶ 247.)
Section 552(a) of the Bankruptcy Code, made applicable in the above-captioned Title III cases by 48
U.S.C. § 2161(a), provides as follows:
Except as provided in subsection (b) of this
section, property acquired by the estate or by
the debtor after the commencement of the case
is not subject to any lien resulting from any
security agreement entered into by the debtor
before the commencement of the case.
11 U.S.C.A. § 552(a) (West 2016). Section 552(a) thus
establishes a “general rule . . . that property acquired
by the bankruptcy estate post-petition is not subject
to any lien resulting from a pre-petition security
agreement.” In re Nat’l Promoters & Servs., Inc., 499
B.R. 192, 205 (Bankr. D.P.R. 2013); see also Wheeling
& Lake Erie Ry. Co. v. Keach (In re Montreal, Me. &
Atl. Ry., Ltd.), 799 F.3d 1, 7 (1st Cir. 2015). “The purpose of [the] general rule of invalidating after-acquired property clauses is to facilitate the debtor’s

69a
fresh start, rehabilitation, and reorganization by allowing the debtor to include as much property as possible in the estate to satisfy the claims of general creditors.” In re Nat’l Promoters & Servs., Inc., 499 B.R.
at 205.
Section 552(b)(1) establishes an exception to
Section 552(a):
Except as provided in sections 363, 506(c),
522, 544, 545, 547, and 548 of this title, if the
debtor and an entity entered into a security
agreement before the commencement of the
case and if the security interest created by
such security agreement extends to property
of the debtor acquired before the commencement of the case and to proceeds, products, offspring, or profits of such property, then such
security interest extends to such proceeds,
products, offspring, or profits acquired by the
estate after the commencement of the case to
the extent provided by such security agreement and by applicable nonbankruptcy law,
except to any extent that the court, after notice and a hearing and based on the equities of
the case, orders otherwise.
11 U.S.C.A. § 552(b)(1) (West 2016). By virtue of this
exception, “if a security agreement entered before the
commencement of the case extends ‘to proceeds, product, offspring or profits’ of the original collateral, then
the security interest continues to apply to the proceeds and so on, even when they are acquired by the
debtor or estate after the bankruptcy case begins.”
Johnson v. Cottonport Bank, 259 B.R. 125, 128 (W.D.
La. 2000). Among other things, Defendants contend
that, because the Resolution provides a security interest in Pledged Property consisting of Revenues “and

70a
all rights to receive the same,” and “Revenues” are defined to include Employers’ Contributions and all cash
and non-cash proceeds from the Pledged Property, the
Resolution establishes that Defendants have broad
liens that encompass contributions that have already
been made as well as rights to future contributions
and all proceeds of those rights. (Defs.’ Mot. ¶¶ 4142.) According to Defendants, the “proceeds” of such
rights include payments or collection of contributions
from employers. (Id. ¶ 48.) Defendants argue that
their pre-petition collateral includes the right to receive future contributions, and therefore all such contributions—whenever made—are the proceeds of that
pre-petition right. (Docket Entry No. 120, the “Defendants’ Opposition,” at ¶¶ 46-49.) According to the
Bondholders, Section 552(b)(1) therefore renders Section 552(a) inapplicable to ERS’s right to receive such
contributions after the petition date. (Defs.’ Mot.
¶ 47.)
Significantly, Section 552(b)(1)’s exception to Section 552(a)’s general rule only extends to “property of
the debtor acquired before the commencement of the
case” and the “proceeds, products, offspring, or profits
of such property.” 11 U.S.C.A. § 552(b)(1) (West
2016). Put another way, Section 552(b)(1) does not extend to the proceeds of property which itself is acquired after the petition date. Thus, the crux of the
issue now before the Court is whether post-petition
contributions constitute property acquired after the
petition date or the proceeds of pre-petition collateral.
The parties have identified no binding authority
governing the question of whether post-petition Employers’ Contributions to ERS are protected by Section
552(b)(1), nor has the Court’s own research disclosed

71a
any such authority. Accordingly, the Court has considered carefully lower court decisions and the provisions of the relevant Resolution and statutes in determining the issue before it.
The instant factual context is analogous to that of
In re HRC Joint Venture, 175 B.R. 948 (Bankr. S.D.
Ohio 1994), where the creditor, TIAA, had a security
interest in “the remittances to be made by Hyatt to
the debtor under [a] Management Agreement.” 175
B.R. at 952. In that case, the remittances to the
debtor—which owned the building that housed a hotel— were generated by the post-petition acts of a
third party—Hyatt Corporation—which operated the
hotel in the debtor’s building. Id. at 949. The court
held that the remittances were after-acquired property subject to Section 552(a) and that the proceeds
exception in Section 552(b) did not apply because “it is
only post-petition acts which generated the collateral
of TIAA in question, debtor’s right to remittances each
month under the Management Agreement.” Id. at
953.
Here, the Employers’ Contributions were calculated, at least in part, based upon the contributing employers’ respective payrolls. The parties have identified three components of employers’ obligations to
ERS. (Docket Entry No. 199, the “Defendants’ Supplemental Memorandum,” at ¶ 10; Docket Entry No.
204 at 6-7.) The first component, referred to by Defendants as the Percentage of Payroll Contribution, is
a regular contribution calculated as a percentage of an
employer’s payroll. See 3 L.P.R.A. § 787f. The second,
referred to by Defendants as the Supplemental Contribution, is based upon the number of the employer’s
current pensioners as of the time of computation. See
Act 3-2013 § 38; 3 L.P.R.A. § 761. The third, referred

72a
to by Defendants as the Additional Uniform Contribution, is based on the proportion of total employer contributions corresponding to each employer in a particular year. See 3 L.P.R.A. § 787q. Accordingly, all
three components of contributions by employers are
contingent on quantitative factors relating to each
employer’s workforce.
However, because the Additional Uniform Contribution varies each year (by reference to actuarial determinations and each employer’s workforce demographics) to ensure that a certain level of assets is
available for ERS, Defendants argue that changes in
an employer’s workforce would not affect the employer’s overall obligations. (Defs.’ Supp. Mem. ¶¶ 1114 (“This standing obligation to make statutory contributions is not contingent on current employee labor, even if the mix of components of that obligation
may change with changes to the employer’s current
payroll.”).) Defendants also point to examples of statutory text expressing an intention or goal of setting
overall contributions to ERS at a level adequate to pay
benefits and administrative costs, less contributions
by employees. (Docket Entry No. 206 at ¶¶ 24-25.)
However, the fact that statutory provisions state a
goal of ensuring that contributions from employers
are adequate to support ERS’s cash flow does not
mean that any particular employer’s obligations are
fixed. Rather, each employer’s Percentage of Payroll
Contribution, Supplemental Contribution, and Additional Uniform Contribution will vary based upon the
size of an employer’s payroll, the number of an employer’s former employees, and actuarial factors.
Thus, the employers’ obligations remain inchoate until such time as the Employers’ Contributions are calculated.

73a
Thus, similar to Defendants here, the creditor in
HRC Joint Venture had been granted a pre-petition
security interest in expected future remittances. Id.
at 952. Furthermore, as here, the right to receive particular future remittances arose based on post-petition events. In HRC Joint Venture, those rights were
the rights to revenue from the management agreement; here, those rights are to funds payable by employers that are calculated based upon certain factors
relating to their postpetition workforce demographics
and payroll obligations. These employers’ specific
contribution payment obligations are not fixed and
unchanging with respect to each employer, but, rather, are calculated based upon certain workforce demographic factors and actuarial determinations. Until the post-petition computations are performed
based upon post-petition facts, the receivable to ERS
does not exist and ERS has no right to collect the particular contribution. Thus, the relevant right to payment only comes into existence as the result of and
contemporaneously with post-petition acts, and the
proceeds of that right are therefore the proceeds of
post-petition property; ERS’s right to payment of the
post-petition property is not “property of the debtor
acquired before the commencement of the case.” 11
U.S.C. § 552(b)(1). The proceeds of that post-petition
property therefore are outside of the ambit of Section
552(b)(1). See HRC Joint Venture, 175 B.R. at 954;
see also Local Loan Co. v. Hunt, 292 U.S. 234, 243
(1934) (“The earning power of an individual is the
power to create property; but it is not translated into
property within the meaning of the bankruptcy act
until it has brought earnings into existence.”);
Arkison v. Frontier Asset Mgmt., LLC (In re Skagit
Pac. Corp.), 316 B.R. 330, 336 (B.A.P. 9th Cir. 2004)
(“[W]here it is only post-petition acts which generate

74a
an account receivable, those post-petition receivables
will not be considered proceeds because there is no interest in, or connection to, the right in the account receivable created pre-petition.”); In re Texas Tri-Collar,
Inc., 29 B.R. 724, 726–27 (Bankr. W.D. La. 1983)
(“[A]ccounts receivable generated after commencement of the case are in no way proceeds, product, offspring, rents or profits of prepetition accounts receivable . . . .”).
Although Defendants cite to case law for the proposition that post-petition collection of accounts receivable can be proceeds of property subject to pre-petition
security agreements under Section 552(b)(1), those
cases are not persuasive here because they concern
the collection of receivables generated by the sale or
other disposition of pre-petition property. See In re
Bumper Sales, Inc., 907 F.2d 1430, 1432, 1439 (4th
Cir. 1990) (holding that Section 552(b)(1) extended to
the post-petition proceeds of sale of pre-petition inventory and to inventory purchased with the post-petition
proceeds); In re Sunberg, 729 F.2d 561, 562-63 (8th
Cir. 1984) (holding that Section 552(b)(1) extended to
governmental farm subsidies acquired after the petition date under a pre-petition contract providing for
specific compensation for the non-crop use of farmland). Such proceeds of pre-petition collateral clearly
fall within the scope of Section 552(b)(1). That factual
context is materially different from the instant scenario, where the amount of Employers’ Contributions
from each employer remain unfixed until they become
calculable and payable.10
10

Comparisons to Johnson v. Cottonport Bank, 259 B.R. 125
(W.D. La. 2000) fail for substantially the same reason. There,
the district court, applying Louisiana law, determined that the
debtor’s right to receive a payment from a tribe was a property

75a
Defendants’ citation to Cadle Co. v. Schlichtmann,
267 F.3d 14 (1st Cir. 2001) is similarly unavailing. In
that case, a creditor (Cadle) held a pre-petition security interest in a contingency fee to be paid to a law
firm at the conclusion of a particular litigation referred to as the “Groton Matter.” 267 F.3d at 16. A
settlement agreement was approved by a state court
with respect to the Groton Matter in 1991, and the
settlement proceeds had been deposited into an escrow account prior to the commencement of the relevant bankruptcy case, “with distribution subject to
the settlement’s approval by the Massachusetts Department of Environmental Protection.” Id. In 1991,
one of the firm’s partners (Schlichtmann) filed for
Chapter 7 bankruptcy protection and, subsequently,
the firm was dissolved. Id. Thereafter, Schlichtmann
agreed to take over the Groton Matter in exchange for
one-third of the fee received on it. Id. at 19. Following
further work on the Groton Matter by Schlichtmann,
the matter was entirely resolved and a portion of the
settlement proceeds were transferred to Schlichtmann, who distributed a portion to his former partners. Id. at 16. Cadle—which had received no portion
of that distribution—commenced litigation against
Schlichtmann and his former partners. Id. The First
Circuit held that Cadle had a right to the portion of
the Groton Matter fee that Schlichtmann had retained. Id. at 17. The distribution of the settlement
proceeds was governed by a pre-petition agreement
between the law firm and the plaintiffs in the Groton
Matter. Id. The entirety of those amounts was depos-

right that existed prior to the petition date. 259 B.R. at 130-31.
Thus, the payments received pursuant to that right—which were
not subject to variance or recalculation from month to month—
were proceeds of a pre-petition property right.

76a
ited in escrow prior to commencement of Schlichtmann’s Chapter 7 case, and, according to the First
Circuit, the pre-petition letter that was the source of
Cadle’s security interest in the receivable “ma[de]
clear that the parties intended an assignment of a security interest in sums in escrow, not in future fees.”
Id. at 18 n.3. Although the First Circuit stated that
Schlichtmann’s post-petition efforts on the Groton
Matter were not relevant to its analysis, its reasoning
emphasized that “the amount of the fee owed to the
firm . . . was established outside of Schlichtmann’s
bankruptcy,” id. at 19, and that there was no substantial further performance owed by either Schlichtmann
or his law firm with respect to the Groton Matter. Id.
at 21. According to the First Circuit, Schlichtmann’s
efforts were not relevant (notwithstanding the general rule that “ordinarily post-petition earnings belong to the petitioner who has sought bankruptcy protection,” id.) because “in this instance, the firm,
through Schlichtmann, gave the bank an unqualified
security interest in a specific fund (i.e., the attorneys’
fee share of the settlement) . . . which was paid into
[an escrow] account well before Schlichtmann declared bankruptcy.” Id. (“Nothing in the commitment
by Schlichtmann suggested, so far as the bank was
concerned, that the fees or the security interest were
contingent on the performance of substantial further
legal services from the firm or from Schlichtmann.”).
Cadle thus concerned the distribution of specific proceeds that were deposited in escrow and which were
subject to an agreed allocation prior to the petition
date. No such fund or pledge of an interest in such a
pre-petition fund underlies the Bondholders’ post-petition security claim to post-petition proceeds. Rather, at the time that ERS’s Title III petition was filed,
the relevant public employees had not even performed

77a
the labor generating the payroll upon which their employers’ post-petition ERS contribution obligations
would be computed.
The foregoing decisions persuade the Court that
Section 552(b)(1) protects post-petition attachment of
security interests in property acquired after the petition date where that property constitutes the proceeds
of collateral that was fixed in form or quantity and
owned by the pledgor pre-petition.
Subsequent
events, such as sales of pre-petition inventory or automatic payments of fixed amounts pursuant to pre-petition contractual rights, may generate post-petition
proceeds that are protected by Section 552(b)(1) because their value is traceable to and calculable by reference to the pre-petition property without any additional post-petition labor or other intervening valuedefining or -adding action. Here, the relevant statutory provisions made the accrual and computation of
the employers’ contribution obligations contingent
upon their contemporaneous payrolls, workforce demographics, and the actuarial funding status of ERS.
ERS therefore gained rights to collect the particular
amounts once they could be computed, and there is
nothing in the record to indicate the employers’ actual
post-petition contribution liabilities were the product
of anything other than computations based on thencurrent payrolls, demographics, and actuarial factors.
Accordingly, the contributions acquired post-petition
were not proceeds of ERS’s inchoate pre-petition right
to receive future contributions computed by reference
to yet-to-be determined post-petition circumstances.
B. Section 928(a) of the Bankruptcy Code
Counterclaim III of Defendants’ Answer seeks a
declaration that, “because the employer contributions
constitute ‘special revenues,’ their security interest in

78a
and liens on employer contributions received by the
ERS after the Petition Date remain enforceable pursuant to 11 U.S.C. § 928(a).” (Answer at ¶ 257.) Section 928 of the Bankruptcy Code provides another exception from the general rule established by Bankruptcy Code Section 552(a), stating that, “[n]otwithstanding section 552(a) of this title and subject to subsection (b) of this section, special revenues acquired by
the debtor after the commencement of the case shall
remain subject to any lien resulting from any security
agreement entered into by the debtor before the commencement of the case.” 11 U.S.C.A. § 928(a) (West
2016).11 “Special revenues” are defined, as here relevant, in Section 902(2)(A) and 902(2)(D) of the Bankruptcy Code as follows:
902(2)(A): “receipts derived from the ownership, operation, or disposition of projects or
systems of the debtor that are primarily used
or intended to be used primarily to provide
transportation, utility, or other services, including the proceeds of borrowings to finance
the projects or systems”
902(2)(D): “other revenues or receipts derived
from particular functions of the debtor,
whether or not the debtor has other functions.”
11 U.S.C.A. § 902 (West 2016).
The Bondholders contend that Employers’ Contributions are “special revenues” within the meaning of
both Sections 902(2)(A) and/or 902(2)(D) and are
therefore exempt from Section 552(a).

11

Bankruptcy Code Section 928 is made applicable in these Title III proceedings by Section 301 of PROMESA.

79a
Defendants argue that the Pledged Property constitutes “other revenues or receipts derived from particular functions of the debtor” within the meaning of
Section 902(2)(D), characterizing the “particular functions” of ERS as “collecting and investing employer
contributions and providing pension and other benefits to retired employees.” (Defs.’ Mot. ¶ 52.) Because
ERS’s “self-acknowledged function” is to collect and
pay out pension payments, and because ERS is enabled to perform this function by its statutory right to
receive employer contributions from the Commonwealth and other public corporations and municipalities, Defendants argue, employer contributions are
“received” and thus “derived” from particular functions of ERS. (Id.) Defendants also contend that the
Employee Retirement System is a “system” within the
meaning of Section 902(2)(A) because it was “created
by the Commonwealth to administer the payment of
pensions and the delivery of other benefits for retired
employees of public corporations.” (Defs.’ Mot. ¶ 53.)
ERS argues that the Employers’ Contributions
are not “special revenues” as defined in either subdivision of Section 902(2) relied upon by Defendants.
First, ERS contends that Section 902(2)(A) “concerns
special revenues from the operation of utility or transportation systems” (Pl.’s Mot. at 32) and does not cover
a benefits trust such as ERS, asserting that Employers’ Contributions are not derived from the ownership,
operation, or disposition of a project or system used
primarily to provide transportation, utility, or other
services. ERS invokes the principle of ejusdem generis in support of the proposition that, where general
words follow a designation of a particular subject, the
meaning of those general words will include only
things of the same type or nature as those particular
subjects. (Pl.’s Mot. at 32-33.) ERS also contends that

80a
the legislative history of Section 902(2)(A) confirms a
limited interpretation of “other services.”12 (Id.) In
response to Defendants’ argument that Employers’
Contributions fall within the meaning of Section
902(2)(A) because ERS’s name includes the word “system,” ERS asserts that such an interpretation would
expand the scope of services subject to Section
902(2)(A) in a manner that ignores Congress’s specification of “transportation” and “utility” services in the
definition, and that Defendants have failed to identify
any case law expanding the scope of “special revenues” beyond a form of utility or transportation service. (Docket Entry No. 115, the “Plaintiff’s Opposition,” at 28.)
Second, ERS argues that the Revenues do not constitute special revenues under Section 902(2)(D) because the “particular functions” of ERS are to “collect
and pay out pension payments to certain public retirees.” (Pl.’s Opp. at 29.) ERS asserts that Employers’
Contributions are not “derived from” these “particular
functions” of ERS and are instead derived from the labor of employees and used to fund the payment of pension benefits. (Pl.’s Mot. at 34.) Thus, ERS argues
that Employers’ Contributions are not a result of any
services provided by ERS within the meaning of Section 902(2)(D). (Pl.’s Opp. at 29.)
The Court concludes that the Employers’ Contributions are not “special revenues” within the meaning
of either Section 902(2)(A) or Section 902(2)(D) of the
12

See, e.g., H.R. Rep. No. 100-1011, at 6 (1988) (The “first type
[of special revenues], described in new subsection (2)(A), consists
of receipts derived from the ownership or operation of a debtor’s
systems or projects used to provide transportation, utilities, or
other services. It would include receipts from the operation of
water, sewage, waste, or electric systems.”).

81a
Bankruptcy Code. “[W]here words of a particular or
specific meaning are followed by general words, the
general words are construed to apply only to persons
or conditions of the same general kind as those specifically mentioned.” Lyman v. Commissioner of Internal Revenue, 83 F.2d 811, 813 (1st Cir. 1936) (applying the principle of ejusdem generis to the statutory
language “fires, storms, shipwreck, or other casualty”); see also McBoyle v. United States, 283 U.S. 25,
27 (1931). Here, the definition of special revenues as
set forth in Section 902(2)(A) encompasses “projects or
systems of the debtor that are primarily used or intended to be used primarily to provide transportation,
utility, or other services.” Applying ejusdem generis
as a principle of statutory interpretation to Section
902(2)(A) limits the meaning of “other services” to projects or systems of “the same general kind” as transportation or utility projects or systems. References to
“transportation” and “utility” in this definition contemplate a physical system of providing services to
third parties. ERS is a benefits trust that does not
provide any “transportation” or “utility” services, the
Employers’ Contributions received by ERS are not calculated by reference to or otherwise tied to the provision of transportation, utility, or similar services, and
ERS does not produce any product provided to employers in return for payments into its system. The
Court therefore concludes that the term “other services” as included in the definition of special revenues
set forth in Section 901(2)(A) does not encompass Employers’ Contributions.
Nor are the Employers’ Contributions “special
revenues” as defined in Section 902(2)(D) of the Bankruptcy Code. The contributions are a means of collection and delivery of deferred compensation to Commonwealth employees, and ERS therefore functions

82a
as a conduit for distribution of Employers’ Contributions rather than as a provider of a “particular function” or service that itself produces revenue. There is
no indication that ERS charges any fees for its services or that Pledged Property includes such fees.
Nor, for substantially the same reasons explained in
the preceding paragraph, are Employers’ Contributions themselves revenues derived from the conduit
function of ERS. Because the Employers’ Contributions are not “special revenues” within the meaning of
either Section 902(2)(A) or Section 902(2)(D) of the
Bankruptcy Code, ERS is entitled as a matter of law
to summary judgment dismissing Defendants’ Counterclaim III.
C. Constitutional Avoidance
Defendants argue that the canon of constitutional
avoidance mandates a construction of Section 552 of
the Bankruptcy Code that renders it inapplicable to
Defendants’ pre-PROMESA security interests, thus
avoiding the “grave and doubtful constitutional questions” raised by an interpretation of Section 552 that
would “cut off” Defendants’ liens on the Pledged Property. (Defs.’ Mot. ¶ 54; Defs.’ Opp’n ¶¶ 66-67 (citing
Armstrong v. United States, 364 U.S. 40, 44, 46
(1960).)) Specifically, Defendants characterize
PROMESA as a “new and unprecedented federal law
that for the first time in the history of the United
States terminates post-petition liens granted by
United States Territories on after acquired [] property
in some circumstances” and argue that the retroactive
application of Section 552, as incorporated by Section
301 of PROMESA, to invalidate any of Defendants’
property rights without just compensation would effectuate a taking in violation of the Takings Clause of
the Fifth Amendment. (Defs.’ Mot. ¶¶ 54, 59-61; Defs.’

83a
Opp’n ¶ 66.) Defendants assert that this Court
“should follow its ‘duty’ under the constitutional
avoidance canon by ‘adopt[ing] the latter’ interpretation to avoid ruling on a serious constitutional question.” (Docket Entry No. 150 at ¶ 31 (citing Jones v.
United States, 529 U.S. 848, 857 (2000)).)
Under the canon of constitutional avoidance, a
court, in deciding “which of two plausible statutory
constructions to adopt . . . must consider the necessary
consequences of its choice. If one [construction] would
raise a multitude of constitutional problems, [then]
the other [construction] should prevail . . . .” Clark v.
Martinez, 543 U.S. 371, 380-81 (2005). However, the
canon of constitutional avoidance is not a method of
adjudicating constitutional questions. Id. at 381. Rather, it “is a tool for choosing between competing plausible interpretations of statutory text, resting on the
reasonable presumption that Congress did not intend
the alternative which raises serious constitutional
doubts.” Id. “The canon is thus a means of giving effect to congressional intent, not of subverting it.” Id.
Defendants ask the Court to avoid an interpretation of Section 552 that would “cut off” their liens on
the Pledged Property. However, it would be unreasonable to presume that Congress did not intend Section 552 to apply in these Title III cases to pre-existing
liens in light of the express incorporation of Section
552 of the Bankruptcy Code into PROMESA through
Section 301 of PROMESA. PROMESA was specifically enacted to enable Puerto Rico to address the unprecedented fiscal emergency that continues to plague
the Commonwealth and its instrumentalities. This
Court cannot subvert the clear intent of Congress by
“choosing” a prospective interpretation of Section 552

84a
that would disable a tool Congress provided in a statute specifically designed to be available to Puerto
Rico. Defendants’ request that the Court construe
Section 552 as applicable only prospectively in the
PROMESA Title III context is denied.
Accordingly, the Court holds that Section 552 applies to prevent the post-petition attachment of Defendants’ liens.
III. CONCLUSION
For the foregoing reasons, summary judgment as
to Count III of the Complaint and Counterclaims II
and III of the Answer is granted in favor of Plaintiff.
Defendants’ summary judgment motion as to Count
III and Counterclaims II and III is denied. The Court
hereby declares that Bankruptcy Code Section 552
prevents any security interest resulting from liens
granted in Defendants’ favor prior to the commencement of ERS’s Title III case from attaching to revenues received by ERS during the post-petition period.
Counterclaims II and III are dismissed. In light of the
preceding conclusions, Court need not address the
parties’ remaining arguments.
SO ORDERED.
Dated: June 27, 2019
/s/ Laura Taylor Swain
LAURA TAYLOR SWAIN
United States District
Judge

85a
APPENDIX E
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
In Re:
The Financial Oversight
and Management Board
3:17-BK-3283 (LTS)
for Puerto Rico
PROMESA Title III
as representative of
(Jointly Administered)
The Commonwealth of
Puerto Rico, et al.,
Debtors
In Re:
The Financial Oversight
and Management Board
for Puerto Rico
as representative of
The Employment Retirement System of the Government of the Commonwealth of Puerto Rico,
Debtor

3:17-BK-3566 (LTS)

86a
The Financial Oversight
and Management Board
for Puerto Rico
as representative of
Employees Retirement
System of the Government of the Commonwealth of Puerto Rico,

Adversary Proceeding
No. 3:17-213 (LTS)

Plaintiff

in 3:17-BK-3566 (LTS)
v.

Andalusian Global Designated Activity Company,
et al.,
Defendants
FINAL JUDGMENT
Pursuant to the “OPINION AND ORDER
GRANTING PLAINTIFF’S MOTION FOR SUMMARY JUDGMENT AS TO COUNT III AND COUNTERCLAIMS II AND III, AND DENYING DEFENDANTS’ MOTION FOR SUMMARY JUDGMENT”,
filed on June 27, 2019 (Docket Entry #251), and the
“ORDER DIRECTING THE CLERK OF COURT TO
ENTER FINAL JUDGMENT”, filed on July 8, 2019
(Docket Entry #252), the above captioned adversary
proceeding is now closed.
SO ORDERED.

87a
In San Juan, Puerto Rico, this 8th day of July,
2019.
Frances Ríos de Morán, Esq.
Clerk of Court
By: s/Carmen Tacoronte
Carmen Tacoronte
Deputy Clerk

88a
APPENDIX F
United States Court of Appeals
For the First Circuit
No. 19-1699
IN RE: THE FINANCIAL OVERSIGHT AND
MANAGEMENT BOARD FOR PUERTO RICO, AS
REPRESENTATIVE FOR THE COMMONWEALTH
OF PUERTO RICO; THE FINANCIAL OVERSIGHT
AND MANAGEMENT BOARD FOR PUERTO
RICO, AS REPRESENTATIVE FOR THE PUERTO
RICO HIGHWAYS AND TRANSPORTATION AUTHORITY; THE FINANCIAL OVERSIGHT AND
MANAGEMENT BOARD FOR PUERTO RICO, AS
REPRESENTATIVE FOR THE PUERTO RICO
ELECTRIC POWER AUTHORITY (PREPA); THE
FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE PUERTO RICO SALES TAX FINANCING CORPORATION, a/k/a Cofina; THE FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE EMPLOYEES RETIREMENT SYSTEM OF THE GOVERNMENT OF THE COMMONWEALTH OF PUERTO RICO,
Debtors.
THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE EMPLOYEES RETIREMENT SYSTEM OF THE GOVERNMENT OF THE
COMMONWEALTH OF PUERTO RICO,
Plaintiff, Appellee,

89a
OFFICIAL COMMITTEE OF RETIRED EMPLOYEES OF THE COMMONWEALTH OF
PUERTO RICO,
Interested Party, Appellee,
v.
ANDALUSIAN GLOBAL DESIGNATED ACTIVITY
COMPANY; GLENDON OPPORTUNITIES FUND,
LP; MASON CAPITAL MASTER FUND LP; OAKTREE OPPORTUNITIES FUND IX (PARALLEL 2),
L.P.; OAKTREE OPPORTUNITIES FUND IX, L.P.;
OAKTREE VALUE OPPORTUNITIES FUND, L.P.;
OAKTREE-FORREST MULTI-STRATEGY, L.L.C.
(SERIES B); OCHER ROSE, L.L.C.;
SV CREDIT, L.P.,
Defendants, Appellants,
PUERTO RICO AAA PORTFOLIO BOND FUND II,
INC.; PUERTO RICO AAA PORTFOLIO BOND
FUND, INC.; PUERTO RICO AAA PORTFOLIO
TARGET MATURITY FUND, INC.; PUERTO RICO
FIXED INCOME FUND II, INC.; PUERTO RICO
FIXED INCOME FUND III, INC.; PUERTO RICO
FIXED INCOME FUND IV, INC.; PUERTO RICO
FIXED INCOME FUND V, INC.; PUERTO RICO
FIXED INCOME FUND, INC.; PUERTO RICO
GNMA AND U.S. GOVERNMENT TARGET MATURITY FUND, INC.; PUERTO RICO INVESTORS
BOND FUND I, INC.; PUERTO RICO INVESTORS
TAX-FREE FUND II, INC.; PUERTO RICO INVESTORS TAX-FREE FUND III, INC.; PUERTO RICO
INVESTORS TAX-FREE FUND IV, INC.; PUERTO
RICO INVESTORS TAX-FREE FUND V, INC.;
PUERTO RICO INVESTORS TAX-FREE FUND VI,
INC.; PUERTO RICO INVESTORS TAX-FREE
FUND, INC.; PUERTO RICO MORTGAGE-

90a
BACKED & U.S. GOVERNMENT SECURITIES
FUND, INC.; TAX-FREE PUERTO RICO FUND II,
INC.; TAX-FREE PUERTO RICO FUND, INC.; TAXFREE PUERTO RICO TARGET MATURITY FUND,
INC.; UBS IRA SELECT GROWTH & INCOME
PUERTO RICO FUND; ALTAIR GLOBAL CREDIT
OPPORTUNITIES FUND (A), LLC; NOKOTA CAPITAL MASTER FUND, L.P.,
Defendants.
No. 19-1700
IN RE: THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE COMMONWEALTH OF
PUERTO RICO; THE FINANCIAL OVERSIGHT
AND MANAGEMENT BOARD FOR PUERTO
RICO, AS REPRESENTATIVE FOR THE PUERTO
RICO HIGHWAYS AND TRANSPORTATION AUTHORITY; THE FINANCIAL OVERSIGHT AND
MANAGEMENT BOARD FOR PUERTO RICO, AS
REPRESENTATIVE FOR THE PUERTO RICO
ELECTRIC POWER AUTHORITY (PREPA); THE
FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE PUERTO RICO SALES TAX FINANCING CORPORATION, a/k/a Cofina; THE FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR THE EMPLOYEES RETIREMENT SYSTEM OF THE GOVERNMENT OF THE COMMONWEALTH OF PUERTO RICO,
Debtors.
THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR PUERTO RICO, AS REPRE-

91a
SENTATIVE FOR THE EMPLOYEES RETIREMENT SYSTEM OF THE GOVERNMENT OF THE
COMMONWEALTH OF PUERTO RICO,
Plaintiff, Appellee,
OFFICIAL COMMITTEE OF RETIRED EMPLOYEES OF THE COMMONWEALTH OF
PUERTO RICO,
Interested Party, Appellee,
v.
PUERTO RICO AAA PORTFOLIO TARGET MATURITY FUND, INC.; PUERTO RICO AAA PORTFOLIO BOND FUND, INC.; PUERTO RICO AAA
PORTFOLIO BOND FUND II, INC.; PUERTO RICO
FIXED INCOME FUND II, INC.; PUERTO RICO
FIXED INCOME FUND III, INC.; PUERTO RICO
FIXED INCOME FUND IV, INC.; PUERTO RICO
FIXED INCOME FUND V, INC.; PUERTO RICO
FIXED INCOME FUND, INC.; PUERTO RICO
GNMA AND U.S. GOVERNMENT TARGET MATURITY FUND, INC.; PUERTO RICO INVESTORS
BOND FUND I, INC.; PUERTO RICO INVESTORS
TAX-FREE FUND II, INC.; PUERTO RICO INVESTORS TAX-FREE FUND III, INC.; PUERTO RICO
INVESTORS TAX-FREE FUND IV, INC.; PUERTO
RICO INVESTORS TAX-FREE FUND V, INC.;
PUERTO RICO INVESTORS TAX-FREE FUND VI,
INC.; PUERTO RICO INVESTORS TAX-FREE
FUND, INC.; PUERTO RICO MORTGAGEBACKED & U.S. GOVERNMENT SECURITIES
FUND, INC.; TAX-FREE PUERTO RICO FUND II,
INC.; TAX-FREE PUERTO RICO FUND, INC.;
TAX-FREE PUERTO RICO TARGET MATURITY
FUND, INC.,
Defendants, Appellants,

92a
ALTAIR GLOBAL CREDIT OPPORTUNITIES
FUND (A), LLC; ANDALUSIAN GLOBAL DESIGNATED ACTIVITY COMPANY; GLENDON OPPORTUNITIES FUND, LP; MASON CAPITAL
MASTER FUND LP; NOKOTA CAPITAL MASTER
FUND, L.P.; OAKTREE OPPORTUNITIES FUND
IX (PARALLEL 2), L.P.; OAKTREE OPPORTUNITIES FUND IX, L.P.; OAKTREE VALUE OPPORTUNITIES FUND, L.P.; OAKTREE-FORREST
MULTI-STRATEGY, L.L.C. (SERIES B); OCHER
ROSE, L.L.C.; SV CREDIT, L.P.; UBS IRA SELECT
GROWTH & INCOME PUERTO RICO FUND,
Defendants.
___________________
Before
Howard, Chief Judge,
Torruella,* Lynch, Lipez, Thompson, Kayatta, and
Barron,**
Circuit Judges.
___________________
ORDER OF COURT
Entered: March 3, 2020
The panel of judges who decided the case is of the
view that the opinion should be amended therein. The
amendment is reflected in an errata sheet ordered by
the panel to issue, the opinion is hereby amended by
the panel, and the petition for rehearing is otherwise
denied.

*
Judge Torruella is recused from this case and did not participate in the determination of this matter.
**
Judge Barron is recused from this case and did not participate in the determination of this matter.

93a
The petition for rehearing en banc having been
submitted to the active judges of this court and a majority of the judges not having voted that the case be
heard en banc, it is ordered that the petition for rehearing en banc be denied.
By the Court:
Maria R. Hamilton, Clerk
cc: Ginger D. Anders
Ann M. Ashton
Ehud Barak
Hermann D. Bauer-Alvarez
Antonio Juan Bennazar-Zequeira
Bruce Bennett
Martin J. Bienenstock
Katiuska Bolanos-Lugo
Guy Brenner
Wandymar Burgos-Vargas
Raul Castellanos-Malave
John K. Cunningham
Margaret Antinori Dale
William D. Dalsen
Joseph P. Davis III
Luis Francisco Del-Valle-Emmanuelli
Chantel L. Febus
Ubaldo M. Fernandez
Alfredo Fernandez-Martinez
Ralph C. Ferrara
Michael A. Firestein
David Robert Fox
Mark R. Freeman
Carla Garcia-Benitez
Ian Heath Gershengorn
Chad Golder
Robert D. Gordon

94a
James M. Gross
Michael R. Hackett
Mark David Harris
Lindsay C. Harrison
Beth Heifetz
Stephan E. Hornung
Glenn Kurtz
Alicia Irene Lavergne-Ramirez
Richard B. Levin
Jeffrey W. Levitan
Andres W. Lopez
Michael Luskin
Rachel G. Miller Ziegler
Timothy W. Mungovan
Susana I. Penagaricano Brown
Isel Maria Perez
Daniel Jose Perez-Refojos
Kevin J. Perra
Paul V. Possinger
Michael S. Raab
Lary Alan Rappaport
Stephen L. Ratner
Parker Andrew Rider-Longmaid
John E. Roberts
Jennifer L. Roche
Melissa M. Root
Benjamin Rosenblum
Jose Carlos Sanchez-Castro
Michael Shih
Sparkle Leah Sooknanan
Catherine Steege
Geoffrey S. Stewart
Maraliz Vazquez-Marrero
Donald B. Verrilli Jr.
Jason Zakia

95a
APPENDIX G
STATUTORY PROVISIONS
INVOLVED
11 U.S.C. § 552. Postpetition effect of security
interest
(a) Except as provided in subsection (b) of this section, property acquired by the estate or by the debtor
after the commencement of the case is not subject to
any lien resulting from any security agreement entered into by the debtor before the commencement of
the case.
(b)(1) Except as provided in sections 363, 506(c),
522, 544, 545, 547, and 548 of this title, if the debtor
and an entity entered into a security agreement before
the commencement of the case and if the security interest created by such security agreement extends to
property of the debtor acquired before the commencement of the case and to proceeds, products, offspring,
or profits of such property, then such security interest
extends to such proceeds, products, offspring, or profits acquired by the estate after the commencement of
the case to the extent provided by such security agreement and by applicable non-bankruptcy law, except to
any extent that the court, after notice and a hearing
and based on the equities of the case, orders otherwise.
(2) Except as provided in sections 363, 506(c), 522,
544, 545, 547, and 548 of this title, and notwithstanding section 546(b) of this title, if the debtor and an entity entered into a security agreement before the commencement of the case and if the security interest created by such security agreement extends to property
of the debtor acquired before the commencement of

96a
the case and to amounts paid as rents of such property
or the fees, charges, accounts, or other payments for
the use or occupancy of rooms and other public facilities in hotels, motels, or other lodging properties, then
such security interest extends to such rents and such
fees, charges, accounts, or other payments acquired by
the estate after the commencement of the case to the
extent provided in such security agreement, except to
any extent that the court, after notice and a hearing
and based on the equities of the case, orders otherwise.
*

*

*

3 L.P.R.A. § 761. Employees Retirement System
Creation; effective and operative dates ; coordination with federal Social Security
Special provisions.
*

*

*

Sections 37, 38 and 40 of Act Apr. 4, 2013, No. 3,
provide:
*

*

*

Section 38. The Additional Benefits Program for
the Pensioners of the Retirement System for Employees of the Government of the Commonwealth of
Puerto Rico is hereby established. Such benefits shall
be separate from and shall not be part of any pension
or annuity.
*

*

*

‘Section 2. In order to cover the Additional Benefit
Program and the Retirement System for Employees of
the Government of the Commonwealth of Puerto Rico,
beginning on fiscal year 2013-2014, and every subse-

97a
quent fiscal year, the Retirement System for Employees of the Government of the Commonwealth of
Puerto Rico shall receive a contribution equal to two
thousand dollars ($2,000) as of July 1 of each year for
every pensioner of the Retirement System for Employees of the Government of the Commonwealth of
Puerto Rico who entered Public Service on or before
December 31, 1999.
*

*

*

3 L.P.R.A. § 763(42). Employees Retirement System Definitions
The following terms and phrases as used in
§§ 761-788 of this title, unless a different meaning is
plainly required by the context, shall have the following meanings:
*

*

*

(42) Additional Uniform Contribution.— Shall
mean (a) for purposes of fiscal year 2013-2014, one
hundred forty million dollars ($140,000,000), and
(b) for purposes of every fiscal year, beginning on
fiscal year 2014-2015 and ending on fiscal year
2032-2033, the uniform contribution certified by
an external actuary of the System within at least
one hundred twenty (120) days prior to the beginning of said fiscal year, as necessary to prevent the
value of the projected gross assets of the System
from falling below one billion dollars
($1,000,000,000) during any subsequent fiscal
year. If, for any reason, the certificate of the Additional Uniform Contribution for any fiscal year
is not available within at least one hundred
twenty (120) days prior to the beginning of a fiscal
year, or within a shorter term as authorized by the
Office of Management and Budget, the Additional

98a
Uniform Contribution for said fiscal year shall be
the Additional Uniform Contribution applicable to
the immediately preceding fiscal year.
*

*

*

3 L.P.R.A. § 779(d) (2008). Employees Retirement System— Investment and reinvestment of
reserves
(d) Authorization to incur debts.— The Board of
Trustees may authorize the Administrator to seek a
loan from any financial institution of the Government
of the Commonwealth of Puerto Rico or the Federal
Government of the United States of America or
through the direct placement of debts, securing said
debt with the assets of the System. The interest accrued by these obligations shall be exempt from the
payment of income tax to the Commonwealth of
Puerto Rico.
*

*

*

3 L.P.R.A. § 787f. Defined Contribution Hybrid
Program Employer Contributions
Beginning on July 1, 2013, every employer shall
mandatorily contribute to the System a sum equal to
twelve point two hundred and seventy-five percent
(12.275% ) of the contribution of every Program participant while the participant is an employee. These
contributions shall be deposited in the System in order to increase its level of assets, reduce its actuarial
deficit, and improve its capacity to meet future obligations. From July 1, 2014 to June 30, 2016, the minimum employer contribution rate of twelve point two
hundred and seventy-five percent (12.275% ) shall increase annually on every subsequent July 1 by one
percent (1% ) of the compensation regularly earned by
participants. From July 1, 2016 to June 30, 2021, the

99a
minimum employer contribution rate as of June 30 of
each year shall increase annually on every subsequent
July 1 by one point twenty-five percent (1.25% ) of the
compensation regularly earned by participants. Provided, that the established increases applicable to municipalities for fiscal years 2012-2013 and 2013-2014
shall be included in the budget request submitted by
the Office of Management and Budget to the Legislative Assembly for approval.
*

*

*

3 L.P.R.A. § 787q(b). Defined Contribution Hybrid Program Contribution equal to Additional
Uniform Contribution
(b) For each fiscal year, the Retirement System
Administration for the Employees of Government and
the Judiciary shall: (i) determine the portion of the
Additional Uniform Contribution corresponding to
every employer participating in the System based on
the percentage of the total employer contributions corresponding to such employer during the current fiscal
year, and (ii) send to the Director of the Office of Management and Budget and each public corporation and
municipalities whose employees are covered under
this Act, a certificate stating the amount corresponding to such employer.
*

*

*

19 L.P.R.A. § 2212(a)(12), (42), (61), (64). Definitions and index of definitions
(a) In this chapter:
*

*

*

(12) Collateral.— Means the property subject to a security interest or agricultural lien. The term includes:

100a
(A) Proceeds to which a security interest attaches;
(B) accounts, chattel paper, payment intangibles,
and promissory notes that have been sold, and
(C) goods that are the subject of a consignment.
*

*

*

(42) General intangible.— Means any personal property, including things in action, other than accounts,
chattel paper, commercial tort claims, deposit accounts, documents, goods, instruments, investment
property, letter-of-credit rights, letters of credit, life
insurance policies, money, and oil, gas, or other minerals before extraction. The term includes payment intangibles and software.
*

*

*

(61) Payment intangible.— Means a general intangible under which the account debtor's principal obligation is a monetary obligation.
*

*

*

(64) Proceeds, except as used in § 2369(b) of title.—
Means the following property:
(A) Whatever is acquired upon the sale, lease, license, exchange, or other disposition of collateral;
(B) whatever is collected on, or distributed on account of, collateral;
(C) rights arising out of collateral;
(D) to the extent of the value of collateral, claims
arising out of the loss, nonconformity, or interference with the use of, defects or infringement of
rights in, or damage to, the collateral, or

101a
(E) to the extent of the value of collateral and to
the extent payable to the debtor or the secured
party, insurance payable by reason of the loss or
nonconformity of, defects or infringement of rights
in, or damage to, the collateral.
*

*

*

19 L.P.R.A. § 2233(b)(2). Attachment and enforceability of security interest; proceeds; supporting obligations; formal requisites
(b) Enforceability.— Except as otherwise provided in
subsections (c) through (i) of this section, a security
interest is enforceable against the debtor and third
parties with respect to the collateral only if:
*

*

*

(2) the debtor has rights in the collateral or the
power to transfer rights in the collateral to a secured party.
*

*

*

19 L.P.R.A. § 2308. Restrictions on assignment
of promissory notes, health-care-insurance receivables, and certain general intangibles ineffective
(a) Term restricting assignment generally ineffective.— Except as otherwise provided in subsection (b)
of this section, a term in a promissory note or in an
agreement between an account debtor and a debtor
which relates to a health-care-insurance receivable or
a general intangible, including a contract, permit, license, or franchise, and which term prohibits, restricts, or requires the consent of the person obligated
on the promissory note or the account debtor to, the
assignment or transfer of, or creation, attachment, or
perfection of a security interest in, the promissory

102a
note, health-care-insurance receivable, or general intangible, is ineffective to the extent that the term:
(1) Would impair the creation, attachment, or perfection of a security interest, or
(2) provides that the assignment or transfer or the
creation, attachment, or perfection of the security
interest may give rise to a default, breach, right of
recoupment, claim, defense, termination, right of
termination, or remedy under the promissory
note, health-care-insurance receivable, or general
intangible.
(b) Applicability of subsection (a) to sales of certain
rights to payment.— Subsection (a) of this section applies to a security interest in a payment intangible or
promissory note only if the security interest arises out
of a sale of the payment intangible or promissory note,
other than a sale pursuant to a disposition under §
2370 of this title or an acceptance of collateral under
§ 2380 of this title.
(c) Legal restrictions on assignment generally ineffective.— A rule of law, statute, or regulation that prohibits, restricts, or requires the consent of a government, governmental body or official, person obligated
on a promissory note, or account debtor to the assignment or transfer of, or creation of a security interest
in, a promissory note, health-care-insurance receivable, or general intangible, including a contract, permit, license, or franchise between an account debtor
and a debtor, is ineffective to the extent that the rule
of law, statute, or regulation:
(1) Would impair the creation, attachment, or perfection of a security interest, or
(2) provides that the assignment or transfer or the
creation, attachment, or perfection of the security

103a
interest may give rise to a default, breach, right of
recoupment, claim, defense, termination, right of
termination, or remedy under the promissory
note, health-care-insurance receivable, or general
intangible.
(d) Limitation on ineffectiveness under subsections (a)
and (c) of this section.— To the extent that a term in
a promissory note or in an agreement between an account debtor and a debtor which relates to a healthcare-insurance receivable or general intangible or a
rule of law, statute, or regulation described in subsection (c) of this section would be effective under law
other than this chapter but is ineffective under subsection (a) or (c) of this section, the creation, attachment, or perfection of a security interest in the promissory note, health-care-insurance receivable, or general intangible:
(1) Is not enforceable against the person obligated
on the promissory note or the account debtor,
(2) does not impose a duty or obligation on the
person obligated on the promissory note or the account debtor;
(3) does not require the person obligated on the
promissory note or the account debtor to recognize
the security interest, pay or render performance
to the secured party, or accept payment or performance from the secured party;
(4) does not entitle the secured party to use or assign the debtor’s rights under the promissory
note, health-care-insurance receivable, or general
intangible, including any related information or
materials furnished to the debtor in the transaction giving rise to the promissory note, healthcare-insurance receivable, or general intangible;

104a
(5) does not entitle the secured party to use, assign, possess, or have access to any trade secrets
or confidential information of the person obligated
on the promissory note or the account debtor, and
(6) does not entitle the secured party to enforce
the security interest in the promissory note,
health-care-insurance receivable, or general intangible.
(e) Section prevails over specified inconsistent law.—
This section prevails over any inconsistent provisions
of article 201 of the Political Code (3 L.P.R.A. § 902).
*

*

*

19 L.P.R.A. § 2402(a). Savings clause
(a) Pre-effective-date transactions or liens. Except as
otherwise provided in this subchapter, this act applies
to a transaction or lien within its scope, even if the
transaction or lien was entered into or created before
this act takes effect.

105a
APPENDIX H

EMPLOYEES RETIREMENT SYSTEM OF THE
GOVERNMENT OF THE COMMONWEALTH
OF PUERTO RICO

___________________

PENSION FUNDING BOND RESOLUTION
___________________

Adopted on January 24, 2008

106a
BOND RESOLUTION
WHEREAS, Employees Retirement System of
the Government of the Commonwealth of Puerto Rico
(the “System”) is a trust created pursuant to Act 447
of May 15, 1951, as amended (the “Act”), to provide
pension and other benefits to retired employees of the
central government, municipalities and public corporations of the Commonwealth of Puerto Rico;
WHEREAS, by virtue of the Act, the System has,
among others, the duties and powers
(i)
to incur debt secured by the assets
of the System;
(ii)
to receive and collect Employers’
Contributions;
(iii) to make contracts and to execute
all instruments necessary or convenient for the
exercise of any of its powers; and
(iv) to sue and be sued, complain and
defend in all courts of justice and administrative bodies;
WHEREAS, as of June 30, 2005, the System had
an unfunded liability of approximately $9.9 billion
pursuant to the System’s actuarial evaluation report;
WHEREAS, the System’s statutory right to receive Employers’ Contributions is an obligation of the
Employers and a legal asset of the System;
WHEREAS, as a legal asset of the System, the
Employers’ Contributions may be pledged to secure
the debt of the System; and
WHEREAS, in order to decrease the unfunded liability of the System, the System wishes to issue limited, non-recourse obligations in the form of Bonds,

107a
payable solely from the Pledged Property (as defined
below), which includes the Employers’ Contributions;
now, therefore,
BE IT RESOLVED by the Board of Trustees of
the System, as follows:
ARTICLE I
STATUTORY AUTHORITY
SECTION 101. Authority for this Resolution.
This Resolution is adopted pursuant to the provisions
of the Act.
SECTION 102. Resolution to Constitute Contract. In consideration of the purchase and acceptance
of any and all of the Bonds authorized to be issued
hereunder by those Persons who shall hold the same
from time to time, this Resolution shall be deemed to
be and shall constitute a contract among the System,
the Owners from time to time of the Bonds and the
Ancillary Facility Providers; and the security interest
created in this Resolution and the covenants and
agreements therein set forth to be performed on behalf of the System shall be for the equal benefit, protection and security of the Owners of any and all of
the Bonds and the Ancillary Facility Providers, all of
which shall be of equal rank without preference, priority or distinction of any of the Bonds and Ancillary
Facility Providers over any other thereof, except as expressly provided in or permitted by this Resolution.
ARTICLE II
AUTHORIZATION AND ISSUANCE OF BONDS
SECTION 201. Authorization of Bonds. The System may issue hereunder one or more series of Bonds
of the System to be designated as “Pension Funding
Bonds,” which Bonds may be issued as hereinafter

108a
provided without limitation as to amount except as is
or may hereafter be provided in this Resolution or in
a Supplemental Resolution or as may be limited by
law. There is hereby further created by this Resolution, in the manner and to the extent provided herein,
a security interest and lien on the Pledged Property
secure the full and timely payment of the principal of
and premium, if any, and interest on, all of the Bonds
issued pursuant to this Resolution or any Supplemental Resolution. The Bonds shall be special obligations of the System payable solely from the Pledged
Property without recourse against other assets of the
System. The Commonwealth shall not be liable for
the Bonds or any Ancillary Bond Facility. Neither any
Bond nor any Ancillary Bond Facility shall constitute
a debt of the Commonwealth within the meaning of
any constitutional provision, or a pledge of the good
faith and credit of the Commonwealth or of the taxing
power of the Commonwealth, and the Commonwealth
shall not be liable to make any payments thereon, nor
shall any Bond or any Ancillary Bond Facility be payable out of any funds or assets other than the Pledged
Property, and the Bonds and each Ancillary Bond Facility shall contain a statement to the foregoing effect.
SECTION 202. General Provisions for Issuance
of Bonds.
1. The Bonds may, if and when authorized by the System pursuant to one or more Supplemental Resolutions, be issued in one or more Series,
as Senior Bonds or Subordinated Bonds, and the designation thereof, in addition to the name “Pension
Funding Bonds,” shall include such further appropriate particular designations added to or incorporated
in such title for the Bonds of any particular Series as
the System may determine, including designations of

109a
Classes. Each Bond shall bear upon its face the designation so determined for the Series to which it belongs. Except as may be limited by applicable law,
Bonds of a Series may be issued in the form of Capital
Appreciation Bonds, Convertible Capital Appreciation
Bonds, Current Interest Bonds, Adjustable Rate
Bonds, Option Bonds, Fixed Tender Bonds, or any
combination of the foregoing, or any other type of
Bond that may legally be issued by the System, which
in each case may include Serial Bonds or Term Bonds,
or any combination thereof.
2. Each Supplemental Resolution authorizing or providing for the issuance of a Series of
Bonds shall also specify, except as may be limited by
applicable law:
(i) the authorized principal amount
and designation of such Series of Bonds;
(ii) the purpose or purposes for which
such Series of Bonds are being issued, which shall
be one or more of the following, to the extent then
permitted by applicable law and the provisions of
this Resolution: (a) to provide sufficient funds in
order to fund the System and decrease the unfunded liability of the System; (b) to refund or otherwise prepay any Bonds or other evidences of indebtedness issued by the System; (c) to pay or provide for the payment of Financing Costs, including
*

*

*

occur on account of a failure to comply with a condition or event stated in the notice to the Fiscal Agent
pursuant to Section 402 and in the notice of redemption pursuant to Section 405. If there shall be called
for redemption less than all of a Bond, the System
shall execute and the Fiscal Agent shall authenticate

110a
and deliver, upon the surrender of such Bond, without
charge to the Owner thereof, for the unredeemed balance of the principal amount of the Bond so surrendered, Bonds of like Series and maturity in any authorized denomination. If, on the redemption date,
moneys for the redemption of all the Bonds (or portions thereof) of any like Series and maturity and interest rate to be redeemed, together with interest to
the redemption date, shall be held by the Fiscal Agent
so as to be available therefor on said date and if notice
of redemption shall have been provided as aforesaid,
and, with respect to any conditional notice of redemption, the conditions stated in the notice of redemption
shall have been met and satisfied, then, from and after the redemption date, interest on the Bonds (or portions thereof) of such Series and maturity and interest
rate so called for redemption shall cease to accrue and
become payable. If said moneys shall not be so available on the redemption date, such Bonds (or portions
thereof) shall continue to bear interest until paid at
the same rate as they would have borne had they not
been called for redemption.
SECTION 407. Cancellation and Disposition of
Bonds. All Bonds paid or redeemed, either at or before
maturity, shall be delivered to the Fiscal Agent when
such payment or redemption is made, and such Bonds
shall thereupon be promptly canceled. Bonds so canceled shall be disposed of by the Fiscal Agent, in accordance with the Fiscal Agent’s standard procedures,
and, upon request from the System, the Fiscal Agent
shall execute a certificate of disposition in duplicate
by the signature of one of its Authorized Officers describing the Bonds so disposed of, and one executed
certificate shall be delivered to the System and the
other executed certificate shall be retained by the Fiscal Agent.

111a
ARTICLE V
PLEDGE, ASSIGNMENT AND SECURITY
INTEREST; ESTABLISHMENT AND
MAINTENANCE OF FUNDS AND
ACCOUNTS AND APPLICATION THEREOF
SECTION 501. Pledge, Assignment and Security
Interest.
1. The pledge and assignment of, and the
grant of a security interest in and over, the Pledged
Property, subject to Section 804, in favor of the Fiscal
Agent for the benefit of the Bondholders and for the
payment and as security for the payment of the Principal Installments and Redemption Price of and interest on the Bonds and payments due under Credit Facilities, and payments due under Liquidity Facilities
and Qualified Hedges is hereby authorized, created
and granted in accordance with the terms and provisions of this Resolution and subject to the provisions
of this Resolution permitting the application of the
Pledged Property for the purposes and on the terms
and conditions set forth in this Resolution, and in each
case subject to the provisions regarding priority of
payment as between the Senior Bonds and the Subordinated Bonds. Nothing contained herein shall prevent a Credit Facility or Liquidity Facility from being
provided with respect to any particular Bonds and not
others. To further evidence such pledge, assignment
and grant of security interest, the Fiscal Agent and
the System shall execute the Security Agreement and
the System shall cause the proper filing of the Security Agreement in accordance with the Uniform Commercial Code as in effect in Puerto Rico.
2. To the fullest extent provided by the
Act and other applicable law, the pledge, assignment
and grant of security interest provided by this Section

112a
shall be valid and binding, and the Pledged Property
shall immediately be subject to the lien of this pledge,
assignment and security interest without any physical delivery thereof or further act, and the lien of this
pledge, assignment and security interest shall be
valid and binding as against all parties having claims
of any kind in tort, contract or otherwise against the
System, irrespective of whether such parties have notice thereof.
SECTION 502. Establishment of Fund and Accounts.
1. The “Project Fund” is hereby created
and the following Accounts and Subaccounts are
hereby created and established within the Project
Fund, each of which shall have as a prefix “Employees
Retirement System of the Government of the Commonwealth of Puerto Rico” and shall be held by the
Fiscal Agent:
(1) Capitalized Interest Account,
(2) Revenue Account,
(3) Debt Service Account, which, if there
shall be any Subordinated Bonds Outstanding, shall
be established for each Class of Bonds, and each of
which shall contain therein a Principal Subaccount
and an Interest Subaccount,
(4) Debt Service Reserve Account, which,
if there shall be any Subordinated Bonds Outstanding, shall be established for each Class of Bonds,
(5) General Reserve Account, and
(6) Redemption Account, which, if there
shall be any Subordinated Bonds Outstanding, shall
be established for each Class of Bonds.

113a
2. The System may establish and create
such other Accounts in the Fund, or such other Subaccounts in any Account, as may be authorized pursuant to any Supplemental Resolution, including a Supplemental Resolution authorizing a Series of Bonds,
and deposit therein such amounts as may from time
to time be held for the credit of any Account or Subaccount.
3. Amounts held by the System or by the
Fiscal Agent at any time in the Fund or any Accounts
and Subaccounts established pursuant to this Section,
as the case may be, shall be held in trust in separate
Accounts and Subaccounts and shall be applied only
in accordance with the provisions of this Resolution
and the Act.
SECTION 503. Capitalized Interest Account.
1. There shall be deposited in the Capitalized Interest Account amounts, if any, determined
as set forth in a Supplemental Resolution and as required by paragraph (xiii) of subsection 2 of Section
202 and authorizing the issuance of a Series of Bonds.
2. Moneys in the Capitalized Interest
Account or any Subaccount thereof shall be transferred to the corresponding Interest Subaccount in the
Debt Service Account on or prior to the Business Day
preceding each Interest Payment
*

*

*

Person who has executed a Credit Facility with the
System, or otherwise has provided a Credit Facility at
the request of the System, for the benefit of any of the
Bonds.
Currency shall mean Dollars or Foreign
Currency or Currency Unit.

114a
Currency Unit shall mean a composite
currency or currency unit the value of which is determined by reference to the value of the currencies of
any group of countries.
Current Interest Bonds shall mean
Bonds that bear interest which is not compounded but
is payable on a current basis on established dates
prior to maturity.
Current Interest Commencement
Date shall mean the date established prior to the issuance of each Series of Convertible Capital Appreciation Bonds, at which time the periodic compounding
of interest ceases and on and after which date interest
is payable currently on the Accreted Amounts on the
next ensuing interest payment dates.
Debt Service Account shall mean the
Account by that name established by Section 502.
Debt Service Reserve Account shall
mean the Account by that name established by Section 502.
Debt Service Reserve Requirement
shall mean, as of any date of calculation, fifty percent
(50%) of the average of the Accrued Payment Obligation as of the first Business Day of each Bond Year for
each of the following five (5) Bond Years.
Defeasance Obligations shall mean any
of the following which are not callable or redeemable
at the option of the issuer thereof, if and to the extent
the same are at the time legal for the investment of
the System’s funds:
(i) Government Obligations;
(ii) Defeased Municipal Obligations;

115a
(iii) certificates, depositary receipts or
other instruments which evidence a direct ownership interest in obligations described in clauses (i)
or (ii) above or in any specific interest or principal
payments due in respect thereof; provided, however, that the custodian of such obligations or specific interest or principal payments shall be a
bank or trust company organized under the laws
of the United States of America, of the Commonwealth, or of any state or territory of the United
States of America or of the District of Columbia,
with a combined capital stock, surplus and undivided profits of at least $50,000,000 or the custodian is appointed by or on behalf of the United
States of America; and provided further, however,
that except as may be otherwise required by law,
such custodian shall be obligated to pay to the
holders of such certificates, depositary receipts or
other instruments the full amount received by
such custodian in respect of such obligations or
specific payments and shall not be permitted to
make any deduction therefrom; or
(iv) a share or interest in a mutual
fund, partnership or other fund wholly comprised
of obligations described in clauses (i) through (v)
above.
Defeased Municipal Obligations shall
mean any bonds or other obligations of any state or
territory of the United States of America, of the Commonwealth, or of any agency, instrumentality or local
governmental unit of any such state or territory or
Commonwealth which are not callable at the option of
the obligor prior to maturity or as to which irrevocable
instructions have been given by the obligor to call on
the date specified in the notice; and

116a
(i) which are rated, based on an irrevocable escrow account or fund (the “escrow”), in
the highest Rating category of any Rating Agency;
or
(ii) (a) which are fully secured as to
principal, interest and redemption premium, if
any, by an escrow consisting only of cash or Government Obligations, which escrow may be applied only to the payment of such principal and interest and redemption premium, if any, on such
bonds or other obligations on the maturity date or
dates thereof or the specified redemption date or
dates pursuant to such irrevocable instructions,
as appropriate, and (b) which escrow is sufficient,
without reinvestment, as verified by a nationally
recognized independent certified public accountant, or other nationally recognized verification
agent acceptable to the Fiscal Agent, to pay principal of and interest and redemption premium, if
any, on the bonds or other obligations described in
this paragraph on the maturity date or dates specified in the irrevocable instructions referred to
above, as appropriate.
Dollar or $ shall mean a dollar or other
equivalent unit in such coin or currency of the United
States as at the time of payment is legal tender for the
payment of public and private debts.
Employers shall mean, pursuant to the
Act, the government of Puerto Rico, or any Public Enterprise, or municipality, but shall exclude, however,
those subsidiary enterprises of government instrumentalities whose employees, in the judgment of the
Board of Trustees of the System, may not have a clear
relationship of employee and employer with regard to
the Commonwealth.

117a
Employers’ Contributions shall mean
the contributions paid from and after the date hereof
that are made by the Employers and any assets in lieu
thereof or derived thereunder which are payable to
the System pursuant to Sections 2-116, 3-105 and 4113 of the Act.
Employers’ Contribution Rate shall
mean the rate of contribution of each Employer to the
System, initially 9.275% of the Covered Payroll.
Event of Default shall mean an event
described in paragraph I of Section 1101.
Financing Costs shall mean, with respect to any Bonds, all costs of issuance and any other
fees, discounts, expenses and costs related to issuing,
securing and marketing the Bonds.
*

*

*

direction, notice, consent or waiver only Bonds which
an Authorized Officer of the Fiscal Agent knows to be
so owned shall be so disregarded. Bonds so owned
which have been pledged in good faith may be regarded as Outstanding if the pledgee establishes to
the satisfaction of the Fiscal Agent the pledgee’s right
so to act with respect to such Bonds and that the
pledgee is not the System, and (ii) the principal
amount of a Convertible Capital Appreciation Bond or
a Capital Appreciation Bond that shall be deemed
Outstanding for such purposes shall be the Accreted
Amount thereof except as otherwise provided in this
Resolution.
Owner or Owner of Bonds shall mean
each Bondowner.
Parity Hedge Obligations shall mean,
as allocated to a Series of Bonds pursuant to the terms

118a
of the related Supplemental Resolution, fixed and
scheduled payments by the System under Qualified
Hedges. Parity Hedge Obligations shall not include,
among other things, any costs, indemnities, termination payments or similar non-recurring amounts, or
any amortization of such non-recurring amounts.
Parity Obligations shall mean, collectively, all Parity Reimbursement Obligations and Parity Hedge Obligations.
Parity Reimbursement Obligations
shall mean, as allocated to a Series of Bonds pursuant
to the terms of the related Supplemental Resolution,
fixed and scheduled payments due from the System to
any Credit Facility Provider or Liquidity Facility Provider, as provided by Section 206, whether such reimbursements or payments are made to the Credit Facility Provider or Liquidity Facility Provider as a
Bondowner, as a subrogee or otherwise. Parity Reimbursement Obligations shall include, among other
things, reimbursements of direct-pay letters of credit
to be drawn on each principal and/or interest payment
date.
Person or Persons shall mean an individual, partnership, limited liability partnership, corporation, limited liability corporation, trust or unincorporated organization and a government or agency
or political subdivision or branch thereof.
Pledged Property shall mean the following, collectively (but without duplication), except
as otherwise may be provided with respect to a Series
of Bonds by the Supplemental Resolution authorizing
such Bonds:
1. All Revenues.

119a
2. All right, title and interest of the
System in and to Revenues, and all rights to receive the same.
3. The Funds, Accounts, and Subaccounts held by the Fiscal Agent, and moneys and
securities and, in the case of the Debt Service Reserve Account, Reserve Account Cash Equivalents
from time to time held by the Fiscal Agent under
the terms of this Resolution, subject to the application thereof as provided in this Resolution and
to the provisions of Sections 1301 and 1303.
4. Any and all other rights and personal property of every kind and nature from time
to time hereafter pledged and assigned by the System to the Fiscal Agent as and for additional security for the Bonds and Parity Obligations.
5. Any and all cash and non-cash
proceeds, products, offspring, rents and profits
from any of the Pledged Property mentioned described in paragraphs (1) through (4) above, including, without limitation, those from the sale,
exchange, transfer, collection, loss, damage, disposition, substitution or replacement of any of the
foregoing.
Principal Installment shall mean, as of
any date with respect to any Series, so long as any
Bonds thereof are Outstanding, the sum of (i) the principal amount and Accreted Amount (to the extent applicable) of Bonds of such Series (including the principal amount of Option Bonds tendered for payment and
not purchased) due (or so tendered for payment and
not purchased) on such date for which no Sinking
Fund Installments have been established, and (ii) the

120a
unsatisfied balance (determined as provided in Section 507) of any Sinking Fund Installments due on
such date for Bonds of such Series, together with the
premiums, if any, payable upon the redemption of
such Bonds by application of such Sinking Fund Installments.
Principal Subaccount shall mean the
Principal Subaccount established in the Debt Service
Account by Section 502.
Public Enterprise shall mean any government instrumentality or public corporation of the
Commonwealth.
Qualified Hedge shall mean, with respect to particular Bonds, (i) any financial arrangement (a) which is entered into by the System with an
entity that is a Qualified Hedge Provider at the time
the arrangement is entered into, (b) which is a cap,
floor or collar, forward rate, future rate, swap (such
swap may be based on an amount equal either to the
principal amount of such Bonds as may be designated
or a notional principal amount relating to all or a portion of the principal amount of such Bonds), asset, index, Currency, price or market-linked transaction or
agreement, other exchange or rate protection transaction agreement, other similar transaction (however
designated), or any combination thereof, or any option
with respect to any of the foregoing, executed by the
System, and (c) which has been designated as a Qualified Hedge with respect to such Bonds in a written
determination signed by an Authorized Officer and
delivered to the Fiscal Agent, and (ii) any Credit Facility securing the obligations of the System under any
financial arrangement described in clause (i) above.
Each Qualified Hedge shall provide that the System
and the Qualified Hedge Provider shall provide not

121a
less than ten-days’ prior written notice of any amendment to the Fiscal Agent.
Qualified Hedge Provider shall mean a
Person whose long-term obligations, other unsecured,
long-term obligations, financial program rating, counterparty rating, or claims paying ability, or whose
payment obligations under an agreement that would
be a Qualified Hedge are guaranteed by an entity
whose long term debt obligations, other unsecured
long term obligations, financial program rating, counterparty rating, or claims paying ability, are rated, or
whose payment obligations under an interest rate exchange agreement are collateralized in such manner
as to cause such agreement to be rated, at the time of
the execution of such Qualified Hedge, either (i) at
least as high as the third highest Rating Category of
each Rating Agency, but in no event lower than any
Rating Category designated by any such Rating
Agency for the Bonds subject to such Qualified Hedge
(without reference to bond insurance, if any), or (ii)
any such lower Rating Categories which each such
Rating Agency indicates in writing to the System and
the Fiscal Agent will not, by itself, result in a reduction or withdrawal of its Rating (without reference to
bond insurance, if any) on the Outstanding Bonds,
and (iii) a Person whose payment obligations under an
interest rate exchange agreement are subject to collateralization requirements that, as evidenced in writing to the System and the Fiscal Agent by each Rating
Agency, will not, by itself, result in a reduction or
withdrawal of its Rating (without reference to bond
insurance, if any) on the Outstanding Bonds.
Rating shall mean a rating published by
a Rating Agency with respect to any or all Bonds. Any

122a
provision of this Resolution that specifies that an action may not be taken if it shall result in a reduction,
suspension or withdrawal of the Rating of the Bonds,
with respect to any Bonds that are the subject of a
Credit Facility, shall mean the Rating of such Bonds
without taking into account the credit enhancement
provided by such Credit Facility.
Rating Agency shall mean each nationally recognized statistical rating organization then
maintaining a rating on the Bonds at the request of
the System.
Rating Category shall mean one of the
generic rating categories of any Rating Agency without regard to any refinement or gradation of such rating within any such category by a numerical modifier
or otherwise.
Record Date shall mean, with respect to
each payment of interest on a Bond, each date specified as the “record date” therefor in the Supplemental
Resolution authorizing such Bond, or if no such date
is specified, the 15th day of the month preceding the
date of such payment.
Redemption Account shall mean the
Account by that name established by Section 502.
Redemption Price shall mean, when
used with respect to a Bond (other than a Convertible
Capital Appreciation Bond or a Capital Appreciation
Bond) or a portion thereof to be redeemed, the principal amount of such Bond or such portion thereof plus
the applicable premium, if any, and, when used with
respect to a Convertible Capital Appreciation Bond or
a Capital Appreciation Bond, shall mean the Accreted
Amount on the date of redemption of such Bond (or
portion thereof) plus the applicable premium, if any,

123a
payable in either case upon redemption thereof, pursuant to this Resolution and the applicable Supplemental Resolution.
Refunding Bonds shall mean all Bonds
authenticated and delivered on original issuance pursuant to Section 204 or thereafter authenticated and
delivered in lieu of or in substitution for any such
Bond pursuant to this Resolution and the applicable
Supplemental Resolution.
Reserve Account Cash Equivalent
shall mean a letter of credit, insurance policy, surety,
guaranty or other security arrangement provided to
the Fiscal Agent as a substitute for the deposit of cash
and/or Investment Securities, or another Reserve Account Cash Equivalent, in the Debt Service Reserve
Account pursuant to Section 506. Each such arrangement shall be provided by a Person whose claims paying ability has been assigned a rating from each Rating Agency at least equal to the then existing rating
on the Bonds or whose unsecured, long-term debt securities are rated by each Rating Agency at least equal
to the then existing Rating on the Bonds (or the highest short-term rating if the Reserve Account Cash
Equivalent has a remaining term measured from the
date it is provided not exceeding one year).
Resolution shall mean this Bond Resolution, as from time to time amended or supplemented
by Supplemental Resolutions.
Revenue Account shall mean the Account by that name established by Section 502.
Revenues shall mean the following, collectively (but without duplication), except as otherwise may be provided with respect to a Series of Bonds

124a
by the Supplemental Resolution authorizing such
Bonds:
1. All Employers’ Contributions received by the System or the Fiscal Agent.
2. With respect to any particular
Bonds, the proceeds of any draw on or payment
under any Credit Facility which is intended for
the payment of such Bonds, but only for purposes
of such payment and not for other purposes of this
Resolution.
3. Net amounts received by the System pursuant to a Qualified Hedge.
4. Income and interest earned and
gains realized in excess of losses suffered by any
Fund, Account, or Subaccount held by the Fiscal
Agent under the terms of this Resolution, subject
to the provisions of Sections 1301 and 1303.
5. Any other revenues, fees, charges,
surcharges, rents, proceeds or other income and
receipts received by or on behalf of the System or
by the Fiscal Agent, lawfully available for the purposes of this Resolution and deposited by or on behalf of the System or by the Fiscal Agent in any
Fund, Account, or Subaccount held by the Fiscal
Agent under the terms of this Resolution, subject
to the provisions of Sections 1301 and 1303.
Security Agreement means the Security Agreement dated as of January 31, 2008 between
the System and the Fiscal Agent, in the form appended hereto as Appendix A.

125a
Senior Bonds shall mean the Series A
Bonds and any Bonds of a Class the priority of payment of which under this Resolution is equal with that
of the Series A Bonds.
Serial Bonds shall mean Bonds which
have no Sinking Fund Installment.
Series shall mean all of the Bonds authenticated and delivered on original issuance identified pursuant to a Supplemental Resolution as a separate series of Bonds, and any Bonds thereafter authenticated and delivered in lieu of or in substitution
therefor pursuant to Article III or Section 1007, regardless of variations in maturities, principal
amounts, interest rates or other provisions.
Series A Bonds shall mean the System’s
Senior Pension Funding Bonds, Series A, the initial
Series of Bonds to be issued under this Resolution.

